<html>
<title> - REVIEWING THE ADMINISTRATION'S NUCLEAR AGENDA</title>
<body><pre>[Senate Hearing 114-781]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-781

                    REVIEWING THE ADMINISTRATION'S 
                             NUCLEAR AGENDA

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MARCH 17, 2016

                               __________

       Printed for the use of the Committee on Foreign Relations
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


                   Available via the World Wide Web:
                         http://www.govinfo.gov


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-462 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0265726d42617771766a676e722c616d6f2c">[email&#160;protected]</a> 
            



                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  
                          C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1


Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     3


Gottemoeller, Hon. Rose E., Under Secretary for Arms Control and 
  International Security, U.S. Department of State, Washington, 
  DC.............................................................     5

    Prepared statement...........................................     6

    Responses to Additional Questions Submitted to Under 
      Secretary of State Hon. Rose Gottemoeller by Senator Marco 
      Rubio......................................................    50

    Responses to Additional Questions Submitted to Under 
      Secretary of State Hon. Rose Gottemoeller by Senator John 
      Barrasso...................................................    56


Countryman, Hon. Thomas M., Assistant Secretary for International 
  Security and Nonproliferation, U.S. Department of State, 
  Washington, DC.................................................     7

    Prepared statement...........................................     9

    Responses to Additional Questions Submitted to Assistant 
      Secretary of State Hon. Thomas Countryman by Senator Marco 
      Rubio......................................................    58


Tobey, Hon. William, Senior Fellow, Belfer Center for Science and 
  International Affairs, Harvard Kennedy School of Government, 
  Cambridge, MA..................................................    34

    Prepared statement...........................................    35
Tauscher, Hon. Ellen, Member of the Nuclear Threat Initiative 
  Board of Directors, former Under Secretary for Arms Control and 
  International Security, and Former Member of Congress (D, CA)..    39

    Prepared statement...........................................    40


                             (iii)        

 
                    REVIEWING THE ADMINISTRATION'S 
                             NUCLEAR AGENDA

                              ----------                              


                        THURSDAY, MARCH 17, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, Flake, 
Gardner, Cardin, Menendez, Udall, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman.  The hearing of the Foreign Relations 
Committee will come to order.
    The Nuclear Security Summit was first envisioned by 
President Obama in 2009 as an international effort to, in his 
words, ``secure all vulnerable nuclear material around the 
world within four years.'' According to official data from the 
summit, commitments made by participating countries have 
resulted in removal and/or disposition of over 3.2 metric tons 
of vulnerable highly enriched uranium, or HEU, and plutonium 
material; complete elimination of HEU from 12 countries; 
verified shutdown or successful conversion to low enriched 
uranium, LEU, fuel use of 24 research reactors and isotope 
production facilities in 15 countries; completion of physical 
security upgrades at 32 buildings, buildings storing weapons, 
usable fissile materials; insulation of radiation detection 
equipment at 328 international border crossings, airports and 
seaports to combat illicit trafficking in nuclear materials; 
and the establishment of an international nuclear fuel bank as 
a buffer against shortages in the commercial market that might 
otherwise lead more countries to decide to produce their own 
nuclear fuel. A lot of accomplishments there.
    While we welcome those, I fear that they are being 
overshadowed by the actions of nuclear weapons states, a 
combination of rogue regimes and a general weakening of the 
nonproliferation standards and enforcement.
    Today, many argue that the threat of nuclear conflict is 
greater than ever. Pakistan and India are enlarging and 
improving their nuclear arsenals in an attempt to gain an upper 
hand over one another. Meanwhile, there has been virtually no 
progress made to address nuclear security with India. Russia 
remains in violation of the Intermediate-Range Nuclear Forces, 
INF, Treaty while aggressively exercising its nuclear forces. 
The Russians have also broken the 1994 promises of territorial 
integrity they made to Ukraine in connection with that 
country's relinquishment of nuclear weapons, and have ended 
cooperative threat reduction work with the United States. 
Further, we could point to many recent instances of sensitive 
nuclear material being found outside of Russian government 
control.
    North Korea continues to flaunt its nuclear capabilities, 
developed first in violation of the Nuclear Nonproliferation 
Treaty, and then following withdrawal from that treaty without 
fear of reprisal from the international community. No action 
was taken against them when they pulled away from it.
    And Iran continues to parade the arrangement they received 
with the JCPOA by testing ballistic missiles and setting the 
stage to capitalize on the massive industrialization of its 
nuclear complex authorized by the international community.
    Efforts to halt the proliferation of technology that can 
feed nuclear weapons programs are also being undermined. At a 
time when global plutonium stocks are rising, with enough 
material to build at least 20,000 nuclear weapons, recent 123 
agreements have given free passes to pursue reprocessing. We 
talked to Assistant Secretary Countryman about that numbers of 
times.
    I am also concerned that the administration is missing the 
opportunity to call for a plutonium time-out in Asia by 
prohibiting the reprocessing of U.S.-origin material by South 
Korea and China while also calling for Japan to further delay 
the restart of the reprocessing facility at Rokkasho.
    And rather than leveraging the pressure of the 
international community to secure a deal with Iran that ends 
the enrichment of uranium, the P5+1 nations have all but built 
the critical infrastructure that allows them to produce the 
material for which they have no verifiable requirement.
    In light of these developments, it is appropriate that we 
take a closer look today at the President's call nearly seven 
years ago to secure all vulnerable nuclear material around the 
world within four years. It is also worth a quick look at the 
remainder of the Prague agenda as well. While President Obama 
committed to aggressively pursue U.S. ratification of the 
Comprehensive Test Ban Treaty, I thank his administration for 
recognizing that pushing the Senate to provide its advice and 
consent at this time would be futile. Even if we were to ratify 
it, moreover, it would never enter into force because that 
would also require ratification by countries such as North 
Korea, Iran, China, India, and Pakistan.
    Undersecretary Gottemoeller invested significant personal 
attention to negotiate a Fissile Material Cutoff Treaty, but 
Pakistan has refused to consent to open negotiations. Though 
President Obama in his Prague speech stated that ``rules must 
be binding, violations must be punished, words must mean 
something,'' I am concerned that the track record has not 
always matched with the rhetoric, particularly with respect to 
Russia, North Korea, and Iran.
    The Iran deal has demonstrated that non-compliance can be 
rewarded. It really has. Further, even though the U.N. Security 
Council recently passed a resolution to apply new sanctions in 
the wake of missile and nuclear tests, there remains no 
consequence for North Korea abandoning the nonproliferation 
treaty, and the international community has shied away from 
applying real consequences to effect the nuclear calculations 
of the Kim regime.
    I want to thank our witnesses today for joining us and 
helping us examine these important issues. I look forward to 
your testimony.
    With that, I will turn to our distinguished ranking member, 
my friend Ben Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Mr. Chairman, first, thank you for 
conducting this hearing. It is an extremely important hearing 
in regards to our nuclear agenda. The timing could not be more 
appropriate, two weeks before the fourth Nuclear Security 
Summit, the first occurring in the United States in 2010, then 
in Seoul in 2012, and the Hague in 2014, now back to Washington 
in 2016. Fifty-two countries will be here to review their 
nuclear safeguards, as well as four of the relevant 
international organizations.
    The goal clearly is to enhance global nuclear security, 
mitigate the threat posed by nuclear terrorism. I agree with 
much of what the Chairman has said in his opening remarks. 
Since the end of the Cold War, we have seen U.S. leadership, 
bipartisan leadership, to deal with the growing threat of 
nuclear proliferation and the fear that nuclear weapons could 
end up in the hands of rogue states or terrorist organizations.
    The Nunn-Lugar Act in 1991 is a prime example of Democrats 
and Republicans working together to make the world safer and 
the security of the United States stronger. The record of the 
Obama administration in these nuclear security summits, the 
Chairman mentioned some, and I think it is impressive: the 
removal and destruction of 3.2 metric tons of vulnerable highly 
enriched uranium or plutonium, a significant reduction that was 
certainly good news. Twenty-eight countries and Taiwan are now 
highly enriched uranium free. That is certainly good news.
    This committee has looked at what we call the gold standard 
of trying to get less countries, not more, involved in having 
these types of materials or the capacity to enrich. There have 
been upgrades in 32 buildings storing weapons usable for 
fissile materials. That is also a major accomplishment that we 
have been able to do as a result of U.S. global leadership on 
this issue, and I applaud our first panel of witnesses for the 
roles they have both played in these summits.
    So I thank both Secretary Countryman and Secretary 
Gottemoeller for their service to our country and the results 
of being able to move forward, particularly with some of our 
partners who otherwise, I think, would not have moved as 
aggressively as they have on nuclear safety issues.
    But we have significant challenges--North Korea, their 
desire to proliferate. We have seen their fingerprints in other 
parts than just North Korea, and what they are doing today to 
perfect their nuclear capacity is very alarming, knowing that 
this is not a stable regime from the point of view of how they 
may use this capacity. So that is a major concern.
    It is very noticeable that when we meet in two weeks, 
Russia will not be there. They made that decision two years 
ago, that they would not be participating in our Nuclear 
Security Summit. I would like to find out from our witnesses 
how we intend to continue to work with Russia. I agree with 
Chairman Corker, Russia has been less than effective in dealing 
with its nuclear program, and the U.S. involvement with Russia 
tends to bring about better results for nuclear safety. So 
without their presence here, how do we anticipate moving 
forward with Russia and their nuclear activities?
    I am very troubled by countries that we have strategic 
partnerships with, but yet it seems to me that we are not able 
to have them follow international protocols on nuclear safety 
as it relates to the treaty that Senator Corker was referring 
to and other types of activities. They seem to be more 
concerned about some of their border security issues than they 
are about global issues, which is bringing about challenges, 
and we are not sure that is not being used just as an excuse to 
advance some of their nuclear programs, all being very 
provocative to what is happening in sensitive regions of the 
world. So I would be interested as to how we are going to 
continue to work with countries that we have strategic 
partnerships with to get more aggressive action to prevent 
proliferation of nuclear weapons.
    There is also, of course, the area I have great concern 
about, what is going to happen as far as the fear of terrorism 
and making sure that terrorists do not get access to nuclear 
capacities. There is greater need today than ever for all of us 
to work together, bipartisan, to provide U.S. leadership to 
reduce the threat of destructive materials, whether they be 
radiological, biological, or chemical, falling into the wrong 
hands, and I look forward to our first panel and our second 
panel, where I will have the opportunity to question one of my 
former colleagues, Ellen Tauscher. It is a pleasure to see you 
here. It is also nice to have Mr. Toby with us today.
    So, I look forward to both panels.
    The Chairman.  Thank you, Senator Cardin.
    We will now turn to our distinguished witnesses.
    Our first witness is the Honorable Rose Gottemoeller. She 
currently serves as Undersecretary of State for Arms Control 
and Nonproliferation. She has been before our committee several 
times. We thank her for being here again today.
    Our second witness is the Honorable Thomas M. Countryman. 
He currently serves as Assistant Secretary of State for 
International Security and Nonproliferation, again before us 
many times.
    I think both of you understand that, without objection, 
your written testimony will be entered into the record. If you 
could summarize in about 5 minutes or so, we would appreciate 
it. And again, we thank you for your service to our country and 
for being here today.
    Rose, why don't you begin?

STATEMENT OF HON. ROSE E. GOTTEMOELLER, UNDERSECRETARY FOR ARMS 
 CONTROL AND INTERNATIONAL SECURITY, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Gottemoeller. Thank you very much, Mr. Chairman. It is 
a pleasure to appear before you and before Senator Cardin and 
the other members of the committee. It is always a great honor 
for me to come before this committee.
    As a first order of business, Mr. Chairman, I just wanted 
to wish the committee a very happy St. Patrick's Day. You may 
think with my last name that I do not have a drop of Irish 
blood in me, but my mother was a redhead from Sidney, of Irish 
descent. So I am half Irish, actually. Happy St. Patrick's Day.
    The Chairman.  All three of you all are appropriately 
dressed. I am not, but we welcome you. Thank you for saying 
that. Thank you.
    Ms. Gottemoeller. I am very happy to update you on this 
administration's nuclear nonproliferation efforts and the role 
of the Nuclear Security Summit process in preventing nuclear 
terrorism. These are critically important issues for the nation 
and for the world, and so I thank you very much for your 
interest.
    This administration came into office with nuclear 
nonproliferation as a critical component of our foreign policy. 
In 2009, President Obama called for a series of concrete steps 
to help protect our country and the world from nuclear dangers. 
We have taken steps to verifiably reduce the number of nuclear 
weapons that are deployed against us as we continue to maintain 
a safe, secure, and effective arsenal for as long as nuclear 
weapons exist.
    I am glad to tell you that the New START Treaty, with the 
bipartisan support of this body, is providing predictability 
about the Russian nuclear arsenal at a time of continuing 
crisis and a very poor relationship with Moscow. The treaty is 
thus manifestly in the interest of U.S. national security.
    In this hearing, however, Mr. Chairman, I will not further 
focus on arms reductions but on the steps we have taken to 
protect against the further spread of nuclear weapons and the 
threat of nuclear terrorism.
    The prospects of nuclear terrorism present a very different 
challenge from proliferation by other countries. Terrorists do 
not make commitments, other than to destruction, and the black 
markets and smuggling networks that could link them with 
nuclear materials are not bound by recognized rules, norms, or 
by borders. Given the destruction that terrorists could unleash 
with only one weapon, nuclear terrorism is the greatest threat 
to our national security.
    In order to marshal unprecedented attention and efforts to 
address this threat, the administration initiated the Nuclear 
Security Summit process in 2010, bringing together leaders from 
50-plus countries and four international organizations. As you 
both have already noted, the fourth and final of those summits 
will be held here in Washington March 31st and April 1st, in 
two weeks' time.
    The summit process, though, has not just been one of 
gathering leaders to meet every two years. Its achievements are 
measured by the practical follow-through of tangible and real-
world actions making vulnerable nuclear material secure 
kilogram by kilogram, fence by fence, and guard by guard. And 
again, I am grateful to you both for noting some of the 
accomplishments so far.
    Assistant Secretary Countryman will outline in greater 
detail that we have expanded our ability to help international 
partners prevent, detect, and respond to trafficking in nuclear 
and radioactive material.
    Summit participants will commit to maintaining the momentum 
of the Summit process after 2016, including through 
implementing action plans for five key international 
organizations: the U.N., the IAEA, INTERPOL, Global 
Partnership, and the Global Initiative to Combat Nuclear 
Terrorism. So the process will continue.
    I want to thank the committee and its leaders for your 
attention and interest in these matters and your dedication and 
commitment to enhancing American national security. Thank you 
very much, Mr. Chairman.
    [Ms. Gottemoeller's prepared statement follows:]


 Prepared Statement of Hon. Rose E. Gottemoeller, Under Secretary for 
   Arms Control and International Security, U.S. Department of State

    Thank you, Chairman Corker, Senator Cardin and members of the 
committee. It is always a great honor for me to come before this 
Committee and I am very happy to update you on this administration's 
nuclear nonproliferation efforts, and the role of the Nuclear Security 
Summit process in preventing nuclear terrorism. These are critically 
important issues for our nation and for the world, so I thank you for 
your interest.
    This administration came into office with nuclear nonproliferation 
as a critical component of our foreign policy. In 2009, President Obama 
called for a series of concrete steps to help protect our country, and 
the world, from nuclear dangers.
    We've taken steps to verifiably reduce the number of nuclear 
weapons that are deployed against us, as we continue to maintain a 
safe, secure and effective nuclear arsenal for as long as nuclear 
weapons exist.
    I am glad to tell you that the New START Treaty, with the 
bipartisan support of this body, is providing predictability about the 
Russian nuclear arsenal at a time of continuing poor relations with 
Moscow. The Treaty is thus manifestly in the interest of U.S. national 
security.
    In this hearing, I will not further focus on arms reductions, but 
on the steps we have taken to protect against the further spread of 
nuclear weapons and the threat of nuclear terrorism.
    Among those steps has been turning the Proliferation Security 
Initiative and the Global Initiative to Combat Nuclear Terrorism into 
durable international institutions--increasing their membership and 
enhancing coordination to stop shipments of WMD and related items, as 
well as helping partner nations prevent dangerous nuclear materials 
from falling into the hands of criminals or terrorists. We have also 
helped to strengthen the International Atomic Energy Agency's (IAEA) 
safeguards system to ensure nuclear programs around the world are 
purely peaceful.
    And earlier this year, the IAEA confirmed that Iran had completed 
its nuclear commitments to reach ``Implementation Day'' of Joint 
Comprehensive Plan of Action (JCPOA) reached between the P5+1, the 
European Union, and Iran, closing off all of Iran's pathways to acquire 
enough fissile material for a nuclear weapon. As it is fully 
implemented, the agreement is healing a major wound in the global 
nonproliferation regime.
    Yet the prospect of nuclear terrorism presents a very different 
challenge from proliferation by other countries. Terrorists do not make 
commitments, other than to destruction, and the black markets and 
smuggling networks that could link them with nuclear materials are not 
bound by recognized rules, norms, or borders. Given the destruction 
that terrorists could unleash with only one weapon, nuclear terrorism 
is the greatest threat to our collective security.
    In order to marshal unprecedented attention and efforts to address 
this threat, the administration initiated the Nuclear Security Summit 
process in 2010, bringing together leaders from 50+ countries and four 
international organizations. The fourth and final of these Summits will 
be held March 31 and April 1 in Washington, DC.
    Through these Summits, the international community has strengthened 
the international organizations, institutions and multilateral legal 
instruments that make up the global nuclear security architecture.
    Summit participants have also pledged to work together in building 
capabilities to prevent, detect, and respond to radiological and 
nuclear smuggling threats. We all recognize the urgent imperative of 
collective action to find, arrest, and prosecute nuclear smugglers and 
their networks, and recover any dangerous nuclear or radioactive 
materials that remain out of regulatory control.
    The Summit process hasn't just been a matter of gathering leaders 
to meet every two years. Its achievements are measured by the practical 
follow-through of tangible, real-world actions making vulnerable 
nuclear material secure, kilogram by kilogram, fence by fence, and 
guard by guard.
    Simple, but critical steps, such as bolstering security at 
facilities with nuclear and radioactive material, are paying dividends.
    As Assistant Secretary Countryman will outline in greater detail, 
we have expanded our ability to help international partners prevent, 
detect and respond to trafficking in nuclear and other radioactive 
material.
    At the 2016 Summit, leaders will highlight the accomplishments that 
have been made and commit to the further expansion and strengthening of 
the global nuclear security architecture.
    Summit participants will commit to maintaining the momentum of the 
Summit process after 2016, including through implementing Action Plans 
for five key international organizations and initiatives: the U.N., the 
IAEA, INTERPOL, Global Partnership, and the Global Initiative to Combat 
Nuclear Terrorism.
    Looking ahead, we hope to continue to work closely with Congress to 
further strengthen the global nonproliferation regime. Assistant 
Secretary Countryman and I are happy to outline specific efforts such 
as the improvement of verification and monitoring capacities, including 
ensuring that the IAEA is fully resourced, or demonstrating our support 
for nuclear weapons-free zones.
    Mr. Chairman, Senator Cardin and members of the committee, we 
should be under no illusions about the enormous nuclear proliferation 
challenges we face, but looking ahead, we know that the price of 
freedom from nuclear terrorism is eternal vigilance. If we don't get 
this right, nothing else really matters.
    I am certain that with your support, the United States will have 
the tools we need to meet these challenges.
    I want to again thank the committee and its leaders for your 
attention and interest in these matters and your dedication and 
commitment to enhancing American national security.
    I look forward to your questions.
    Thank you.


    The Chairman.  Thank you.
    Mr. Countryman?

 STATEMENT OF HON. THOMAS M. COUNTRYMAN, ASSISTANT SECRETARY, 
  BUREAU OF INTERNATIONAL SECURITY AND NONPROLIFERATION, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Countryman. Thank you, Mr. Chairman, for this 
opportunity. I always appreciate it.
    The Nuclear Security Summit that will occur at the end of 
this month is, as you noted, a crucial element of the strategy 
to keep terrorists from acquiring fissile material to make 
nuclear weapons but is only one part of our much broader 
strategy in nonproliferation. The Summit that you will see at 
the end of this month is not just about declarations but about 
real-world results, many of which you and Senator Cardin have 
already listed. It is not just the elimination of highly 
enriched uranium and plutonium stocks from many countries. It 
means a genuine improvement in the physical security and, just 
as importantly, the attention to security procedures in every 
country that has significant stocks of fissile material, 
including some of the countries that you have mentioned--in 
India, in Pakistan, in China, and in Russia, as well as other 
countries--a strong improvement in the actual security of 
nuclear materials.
    With regard to Russia, we, of course, regret its decision 
not to participate. But again, the nuclear security situation 
has improved, the most important improvement, of course, 
occurring under the Nunn-Lugar program well before the Nuclear 
Security Summit began. But Russia also remains an important 
partner in a number of areas, and I would highlight that Russia 
and the United States continue to cooperate in the chairmanship 
of the Global Initiative to Combat Nuclear Terrorism, an 
association that brings together more than 90 countries for 
very practical steps to combat nuclear terrorism.
    The Summit will, of course, at its conclusion, hand over 
the important work accomplished over the last six years to five 
additional entities in five separate action plans so that the 
work of the Summit will be taken up by the International Atomic 
Energy Agency, the United Nations and its 1540 Committee, 
INTERPOL, the Global Partnership Against WMD, and the Global 
Initiative to Combat Nuclear Terrorism.
    This is specific to the Summit. You have mentioned and we 
look forward to questions about other areas of nuclear 
nonproliferation. Let me note here that, of course, the 
priority for my bureau this year is in continuing to support 
implementation of the Joint Comprehensive Program of Action. In 
my view, this is the most important nonproliferation success of 
the last decade. It is healing a wound in the nonproliferation 
treaty regime, and its successful implementation will mean that 
we have fewer concerns about additional proliferation around 
the world.
    In addition, we are working hard in order to ensure that 
both the recent congressional legislation and the new Security 
Council resolution concerning North Korea are strongly 
enforced, not only by the United States but by bringing all of 
our diplomatic strength to bear to get other nations to enforce 
it just as strongly.
    I share your concerns about the fact that reprocessing of 
spent fuel into plutonium raises considerations of 
nonproliferation, of safety and of security, and I can describe 
further our discussions of that with friends in Asia.
    Finally, I would note that continued leadership, as the 
United States has demonstrated from one administration to the 
next in nonproliferation and disarmament, is built upon keeping 
our own commitments and obligations, and in this regard I very 
much welcome the fact that Congress last year passed the 
implementing legislation that enabled us to ratify the Amended 
Convention on Physical Protection of Nuclear Materials. With 
our ratification, we have been able to get other states to do 
the same. We are now just 10 states away from ratification of 
this most important international convention, and I look 
forward to it coming into force this year.
    I would hope at the same time that we can work together in 
order to take action on other priorities and commitments, such 
as making a long-term commitment to providing the International 
Atomic Energy Agency the expanded resources it needs for its 
mission, at the same time confirming an outstanding nominee to 
represent us at the International Atomic Energy Agency, that 
is, Laura Holgate, and ratifying in the Senate this year what 
should be very non-controversial protocols related to the 
establishment of nuclear-free zones.
    We are, of course, ready to work with you on all of these 
issues and look forward to your questions today.
    [Mr. Countryman's prepared statement follows:]


 Prepared Statement of Hon. Thomas M. Countryman, Assistant Secretary 
  for International Security and Nonproliferation, U.S. Department of 
                                 State

    Chairman Corker, Ranking Member Cardin, and members of the 
committee, thank you for inviting me to testify today about the 
upcoming Nuclear Security Summit and the administration's efforts to 
advance nonproliferation.
    In a landmark speech in Prague in April 2009, President Obama 
sounded a warning call on nuclear terrorism as one of the greatest 
threats to our collective security, citing the potentially catastrophic 
consequences of nuclear materials falling into the wrong hands. The 
President called on world leaders to convene a Summit to adopt concrete 
measures to strengthen the global nuclear security architecture and 
reduce the amount of nuclear material at risk of exploitation by bad 
actors.
    Seven years later, President Obama is preparing to host the fourth 
Nuclear Security Summit (NSS), bringing together leaders from more than 
50 countries and four international and regional organizations to 
strengthen the global nuclear security architecture and reduce the 
threat of nuclear terrorism by reducing the amount of nuclear material 
at risk of falling into the wrong hands.
    These Summits have contributed measurably to our national security, 
spurring concrete actions to decrease highly enriched uranium (HEU) and 
plutonium stocks around the world, improve security measures for 
protecting nuclear facilities and transporting nuclear materials, and 
strengthen capacity to counter nuclear smuggling.
    The Summit Process has raised the profile of the vital importance 
of ensuring the security of nuclear material. States have responded by 
accelerating their nuclear security activities, publicly highlighting 
their efforts, and taking additional measures.
    An important focus of this process has been minimizing the civilian 
use of HEU, which can be used to make nuclear weapons, and getting 
existing stocks of vulnerable nuclear material properly and effectively 
secured. As a direct result of the Summit process, more than a dozen 
countries are now free of HEU. Together, countries have completely 
disposed of or removed more than 3.3 metric tons of HEU and plutonium. 
Nearly two dozen research reactors have been converted to using low 
enriched uranium (LEU) fuel or verified as shut down. To put this 
amount into perspective, 3.3 metric tons of HEU could be used to make 
more than 130 bombs.
    The international community has also focused on simple, but 
critical steps, like bolstering security at facilities with nuclear and 
radioactive material to guard against the most serious threats. With an 
emphasis on transparency and cooperation, we have expanded our ability 
to prevent, detect and respond to trafficking in nuclear and other 
radioactive material. These efforts have included the installation of 
radiation detection equipment at over 300 international border 
crossings, airports, and seaports.
    In January of this year, we signed a Joint Action Plan with Jordan 
to combat nuclear terrorism and improve efforts against nuclear and 
radiological smuggling--the most recent of 14 Joint Action Plans we 
have in place with key partner countries including Iraq, Kazakhstan, 
Georgia and Ukraine. Joint Action Plans have encouraged our partners to 
take concrete steps, including increasing radiological source security, 
strengthening border detection, and passing essential legislation that 
criminalizes nuclear and radiological smuggling. They have been 
instrumental in securing commitments to strengthen law enforcement and 
intelligence capabilities, establishing nuclear smuggling incident 
protocols, and improving nuclear forensics capabilities.
    In 2014, Japan agreed to send to the United States more than 500 
kgs of HEU and separated plutonium used for research purposes that was 
stored at Japan's Fast Critical Assembly in Tokai. The disposition of 
such material is a major victory for nuclear security and reduces the 
amount of weapons-grade nuclear material that might be targeted by non-
state actors.
    Chile has been active over the years in supporting the Nuclear 
Information Security, Training and Support Centers, and NSS Outreach 
Gift Baskets. Just prior to the 2010 NSS, Chile eliminated all of its 
HEU by sending it to the United States for disposition.
    We continue to work closely with Ukraine to help that country 
bolster the security of its nuclear and radiological materials. Ukraine 
has fulfilled its pledge to remove all HEU from its territory, a pledge 
initially made at the first NSS, demonstrating Ukraine's commitment to 
upholding the highest nuclear security and nonproliferation standards. 
Our continued cooperation with Ukraine is particularly important as 
Russia's actions in Ukraine have undermined the foundation of global 
security architecture and created new challenges for the security of 
nuclear and radioactive materials on Ukrainian territory.
    And tomorrow, Energy Secretary Moniz will lead a U.S. delegation to 
the opening of China's Nuclear Security Center of Excellence (COE), 
which is being established based on an agreement between our Department 
of Energy and the China Atomic Energy Authority. This center will serve 
as an important domestic nuclear security training resource for China's 
growing nuclear complex. Beyond China, in concert with other COEs in 
the region, it will provide a forum to train relevant personnel across 
Asia in nuclear security best practices. China is also working with 
Ghana and Nigeria to convert Chinese-origin miniature neutron source 
reactors from HEU to LEU. To promote ongoing cooperation on nuclear 
security, the United States and China have initiated an annual 
bilateral Nuclear Security Dialogue, the first of which we just 
conducted in February.
    At the 2012 Nuclear Security Summit, Pakistan detailed its nuclear 
security related training centers, including at its core, the Pakistan 
Center of Excellence for Nuclear Security, which conducts courses 
across the spectrum of nuclear security disciplines, including physical 
protection and personnel reliability. This week, Pakistan is hosting a 
meeting of the IAEA-coordinated International Network for Nuclear 
Security Training and Support Centers at its Center of Excellence, 
where countries will share best practices related to nuclear security. 
Ambassador Bonnie Jenkins, the Department of State Coordinator for 
Threat Reduction Programs and the State Department lead on the Nuclear 
Security Summits, is attending this event. Twenty-six countries have 
pledged to create nuclear security Centers of Excellence, the vast 
majority of which have been established in conjunction with previous 
Nuclear Security Summits.
    We regret that Russia has chosen not attend the Summit this month, 
and we remain disappointed that Russia has chosen to reduce our 
bilateral cooperation on nuclear security in recent years. As the 
countries with the largest stockpiles of weapon-usable nuclear 
materials, the United States and Russia have a special obligation to 
ensure we meet the highest standards of nuclear security. I note that 
we do continue to cooperate productively with Russia in co-chairing the 
Global Initiative to Combat Nuclear Terrorism (GICNT).
    Thanks to the Summit process, we have seen increased membership of 
Summit participants in related international initiatives, such as the 
Global Partnership Against the Spread of Weapons and Materials of Mass 
Destruction and the GICNT; additional contributions to the IAEA nuclear 
security fund; enhanced compliance with United Nations Security Council 
Resolution 1540; and the establishment of Centers of Excellence in 
nuclear security in 24 countries, and of counter nuclear smuggling 
teams around the world.
    We are also closer than ever to entry into force of the 2005 
Amendment to the Convention on the Physical Protection of Nuclear 
Material (CPPNM/A). We are very grateful for your support in passing 
the necessary implementing legislation that enabled the United States 
to join this Amendment as well as the International Convention for the 
Suppression of Acts of Nuclear Terrorism (ICSANT) in 2015. This was 
very important because our ability to lead on nonproliferation is tied 
to the example we set.
    With the President's direct engagement on nuclear security with 
leaders from countries on every continent, we have significantly 
strengthened bilateral, regional, and international cooperation on 
nuclear security.
    This Summit will be a ``transition Summit,'' that will lay the 
foundation for ensuring the important achievements of the past seven 
years are sustained. To do this, we will look to international 
organizations and multilateral partnerships to adopt individual 
institutional Action Plans on April 1and ensure they are implemented. 
We will continue to rely on our Summit partners, as well as engaging 
countries and organizations that have not been a part of the Summit 
process, to work with us to carry this important work forward.
    I also would like to take this opportunity to thank this Committee 
and Congress for its strong bipartisan support for the State 
Department's nonproliferation programs, which reduce the threat of 
weapons of mass destruction around the world. These programs--
Cooperative Threat Reduction (CTR), Export Control and Related Border 
Security Activities (EXBS), the Nonproliferation and Disarmament Fund 
(NDF), and Weapons of Mass Destruction Terrorism (WMDT) carry out a 
range of vital work across the CBRN spectrum including work that 
directly advances the goals of the Nuclear Security Summit. They are 
among the most cost effective and valuable investments the nation can 
make to protect our citizens, our forces deployed abroad, and the 
international community.
    I look forward to your questions.


    The Chairman.  Well, thank you, and thank you both again 
for being here.
    Let me ask you this question. So we have this speech, if 
you will, in 2009. We have the Summit that is upcoming. What is 
it globally that is driving the fact that we actually have 
greater threat of nuclear conflict today than we did then in 
spite of these incremental accomplishments that have occurred 
that we all acknowledge, but we still have a greater threat 
today than we had then of a nuclear conflict? What is it that 
is driving just the opposite of what we had hoped would occur 
through these efforts that are taking place?
    Ms. Gottemoeller. Mr. Chairman, I will make two points in 
this regard. First of all, I do think that the President's 
Prague initiative at its core was focused on the threat of 
nuclear weapons falling into the hands of terrorists, and 
through such mechanisms as the Nuclear Security Summit and all 
the work we have done on global threat reduction, it has really 
raised awareness enormously among countries around the world 
that we really have to do everything we can to physically 
protect nuclear materials, fissile material, weapons, keep them 
out of the hands of terrorists. So I actually think that we 
have a good record, and you will be hearing more about it as 
the run-up to the Summit continues in terms of getting our arms 
around this threat.
    It is a terribly unpredictable threat, however, the threat 
of nuclear weapons in the hands of terrorists, so we can never 
sleep. We have to keep at it day in and day out.
    So that is one point I would like to make. I will grant 
you, sir, that we are very concerned particularly about nuclear 
arms racing in Asia. That is one reason, sir--and I took 
careful note of your comment about the Comprehensive Test Ban 
Treaty, bringing it up for consideration in this body and 
ratification would be futile at this time. I do think that that 
is a correct statement because we need to take time and we need 
to make an effort to really look at the national security value 
of this treaty. In my view, one of its great values is that it 
places a barrier in the way of this arms race in Asia that is 
creating more nuclear weapons capacity in countries in Asia, 
much more than we saw a decade ago. So this is a problem.
    The Chairman.  So today we have--and I appreciate the 
efforts you are talking about around materials not getting into 
terrorists' hands, but we find ourselves in a worse place, a 
greater threat for nuclear conflict than we had at that time, 
and I appreciate you bringing up Asia. This is an issue we had 
with Mr. Countryman. And again, we thank him for his service, 
and we have policy disagreements.
    I do not understand why, knowing that there has been this 
race that is taking place in Asia, that we have 123 agreements 
that are not dealing with the reprocessing issue. It is 
encouraging reprocessing. We are not calling for a plutonium 
time-out, like we could have done, especially at a time when 
Tokyo was willing to put off the Rokkasho reactor from starting 
up again.
    So I do not understand why the administration is putting in 
place policies that actually encourage the reprocessing of 
plutonium when we know that this is the area where 
proliferation is occurring. I do not know if you want to 
address that, both of you, but it is counter to what is in our 
national interest.
    Mr. Countryman. I frankly do not agree that we have a 
policy that encourages production of plutonium. The United 
States, as the Department of Energy can explain far better than 
I, is fully aware of the high economic costs of reprocessing, 
of turning plutonium into mixed-oxide fuel, and those economics 
are the same in every country on earth.
    It is a policy that has little, if any, economic 
justification and, as I said, raises concerns about nuclear 
security and nonproliferation. The United States does not 
assist, does not encourage this, and has not done so in either 
the China or the R.O.K. 123 agreements. I would be very happy 
to see all countries get out of the plutonium reprocessing 
business.
    The Chairman.  But we enter into 123 agreements that allow 
it.
    Mr. Countryman. In the case of China, which has already 
long established a reprocessing capability, there is no 123 
agreement we could have written that would have changed their 
policy one inch.
    The Chairman.  What about in South Korea?
    Mr. Countryman. In the case of South Korea, we wrote a 123 
agreement that agrees to defer any decision about South Korea 
using U.S. technology for reprocessing to a date well in the 
future and leaves that decision in the hands of the Secretary 
of Energy.
    The Chairman.  And we all know why we did it.
    Mr. Countryman. Well, there are multiple----
    The Chairman.  We kowtowed to political pressure.
    Mr. Countryman. I strongly disagree.
    The Chairman.  I am sorry but I disagree with that. Why did 
we not address it on the front end? Why did we not address it 
on the front end if we were not doing that? Because we did not 
want to take a hard line against plutonium reprocessing. That 
is exactly it.
    What about the INF Treaty? Russia has been in violation now 
for two years. That was controversial because it came up during 
the time of the new START Treaty. I supported the new START 
Treaty. I think it was the right thing to do, and as long as we 
invest in modernization, like we should, it will end up being a 
good thing for our country. But where are we right now, Ms. 
Gottemoeller, on the INF violations that Russia, as I 
understand it, still has not come into compliance over?
    Ms. Gottemoeller. First of all, Mr. Chairman, I really want 
to underscore a point that I made several times to you and to 
other colleagues up here on Capitol Hill. That is, prior to the 
ratification in December of 2010 of the new START Treaty, our 
intelligence community was not aware of any Russian activity 
inconsistent with the INF Treaty. So this has been an issue 
that has arisen since the new START Treaty was ratified and 
entered into force.
    I have to say, in my diplomatic career, it has been one of 
the most difficult issues that I have ever dealt with. It has 
been extraordinarily difficult because the Russians simply have 
not wanted to engage in a way that would resolve this problem, 
and we are committed to bringing them back into compliance with 
the INF Treaty and essentially recommitting to that treaty for 
the future, again because we believe it is in our national 
security interest and the interest of our allies. Our allies, 
both in Europe and Asia, have a very, very strong interest in 
this matter.
    I will say that we have been engaged in steady diplomacy. I 
see some progress in Russia's willingness at the highest level 
to recommit to the treaty now, and we are looking forward to 
moving expeditiously in 2016 to try to make some progress on 
this difficult matter. But I cannot duck the fact that it has 
been a very difficult negotiation.
    The Chairman.  And what has made it so difficult? They are 
clearly in violation. What is there to negotiate?
    Ms. Gottemoeller. Well, they argue that they, in fact, are 
in full compliance with the INF Treaty, and instead they have 
thrust three allegations our way. So it is, I would say, quite 
typical Soviet-style negotiating tactics; that is, the best 
defense is a good offense.
    The Chairman.  I have had a good relationship with you, and 
I appreciate the many, many conversations that we have had, and 
certainly the meetings we have had down at the SCIF, and I 
would just make an observation. I know you have been nominated 
to a position that does not require Senate approval with NATO.
    I do think there is widespread concern about sometimes many 
people feeling like you are an apologist for Russia at a time 
when NATO really needs to push back against Russia, and I would 
just encourage you somehow to figure out a way to change that 
opinion. I realize that you are not going to be confirmed by 
the Senate. It is not one of those kind of positions. But 
especially as it is related to this INF issue, I am just being 
honest with you. I think you already know that, but people are 
very concerned that you really have not been the kind of person 
who has pushed back heavily against Russia and have been more 
of an apologist because of your many interactions.
    I do not know if you want to respond to that or just 
acknowledge that that is something that needs to be addressed.
    Ms. Gottemoeller. Perhaps, Mr. Chairman, I will just make 
two points. It is inevitable, I think, because of my 
longstanding background working with the Soviet Union and the 
Russian Federation. I have spent time working as the Director 
of the Carnegie Moscow Center, so spent time working in Moscow 
and with Russians. I have respected Russian colleagues. I do 
feel that pragmatic problem-solving in the diplomatic realm is 
important, and that is whether we are talking about the 
Russians, whether we are talking about the Pakistanis, whether 
we are talking about the Chinese or the Zimbabweans. Pragmatic 
problem-solving is my approach to how we actually move the ball 
forward.
    So I do not apologize for that kind of pragmatism in the 
service of our country, and I only undertake measures that are 
in the interest and in the service of my country, with the full 
accord of our interagency community. So that is one point I 
would like to make.
    The other point I would like to make, sir, is I think all 
those who are concerned in this matter should not take my word 
for it. Of course, I would defend myself. But I think asking 
people like Assistant Secretary Victoria Nuland, who was up 
here yesterday, who has quite a tough reputation in this 
regard; people like Dan Freid, who is our sanctions negotiator, 
quite a tough reputation in this regard; and people like 
General Breedlove. I think it would be worth perhaps them 
making some inquiries of folks like that, what they think about 
me.
    The Chairman.  Thank you very much.
    Senator Udall?
    Senator Udall. Thank you very much, Chairman Corker.
    And thank you both for coming before the committee again.
    President Obama has expressed his support for the 
ratification of the Comprehensive Test Ban Treaty, and many 
arms control experts believe that the past opposition to this 
treaty is no longer valid, and I agree with that. In the past, 
some believed that live testing might be necessary to ensure 
the reliability of the U.S. stockpile. Some also were skeptical 
that the treaty could not be enforced because rogue nations 
might test weapons clandestinely and do that underground.
    My understanding is that the arms control expert consensus 
is that those concerns are no longer valid, and I would like to 
seek your judgment on these matters.
    First, the national labs, using science-based models, have 
developed the life extension programs to maintain our 
stockpile. Much of this work occurs in New Mexico at the two 
national labs there, Sandia and Los Alamos. We have some of the 
best scientists in the world at our national labs.
    Yesterday, the Administrator of the National Nuclear 
Administration, General Klotz, said he is confident in our 
deterrent and the life extension program's ability to maintain 
the stockpile without testing. I believe all of the national 
lab directors concur with this assessment.
    Do you both share the confidence in science-based life 
extension programs and that the technology means that live 
testing of nuclear weapons is not needed for our national 
security?
    Ms. Gottemoeller. Yes, Senator.
    Mr. Countryman. Yes.
    Senator Udall. You do?
    Ms. Gottemoeller. Yes.
    Senator Udall. Do you want to expand on that at all, or 
shall I fire away with another question here?
    Ms. Gottemoeller. Well, I would just comment quickly that 
at the time this body last reviewed the Comprehensive Test Ban 
Treaty in 1999 for ratification and failed to give its advice 
and consent, at that point stockpile stewardship, science-based 
stockpile stewardship was a newborn baby and had not yet been 
developed. In the ensuing decade-and-a-half, it has made 
enormous strides, and just as Administrator Klotz noted 
yesterday, it is providing high confidence now that we can 
sustain and maintain our nuclear arsenal without explosive 
nuclear testing.
    So we are at a much different place with science-based 
stockpile stewardship, and it is well worth a re-look at its 
capability.
    Senator Udall. Great. The national labs have also developed 
cutting-edge, sophisticated sensors and monitoring devices, 
including satellite technology to monitor the globe for a 
nuclear test and thus prevent the proliferation of nuclear 
materials. Given these capabilities, are you confident that we 
can detect a nuclear test using existing technology so that the 
treaty would be verifiable and enforceable? And can you briefly 
outline how this technology helped us understand the latest 
North Korean test?
    Ms. Gottemoeller. Yes, and I believe my colleague can join 
me in saying yes. Again, back in 1999, the international 
monitoring system was but a gleam in the eye of those who had 
put the treaty together, and it was not yet deployed. The 
international monitoring system is an international system of 
monitor, seismic, radiological, ultrasound all around the 
world, many countries participating, and our laboratories 
participate in preparing the technology and helping to put the 
technology in place at the various sites.
    The bottom line is that this system is already proving its 
worth. Within a very few hours, it had detected the nuclear 
explosion, the latest test in North Korea, and had provided the 
first assessment to the international community. The great 
value of this system is that it is in the service of the entire 
international community, as well as the CTBTO and the CTBT 
system.
    So that is one point that I would really like to 
underscore. But you are quite right, Senator, that the labs are 
also constantly working on upgrading and improving our own 
national technical means so we do not have to depend on the 
IMS. We have in addition an entire layer of monitoring 
capability constantly refreshed by technological developments 
that are implemented by our national laboratories.
    Senator Udall. Secretary Countryman, do you have anything 
to add there?
    Mr. Countryman. No, sir. My boss is the expert here.
    Senator Udall. Okay. Could you also comment--I mean, we 
have the Iran agreement that we have entered into, and I think 
a lot of the same things I talked about in terms of the 
sensors, the monitoring, have allowed us to have a confidence 
level, I believe, in that agreement that normally, if you go 
back 10 or 20 years, we would not have had that kind of 
confidence level, because we have built up the science and we 
have worked very hard to do that. Would you agree with that?
    Mr. Countryman. I would just say that under the Joint 
Comprehensive Program of Action, the ability of the 
International Atomic Energy Agency to inspect and verify and 
monitor activities in Iran exceeds anything that has been done 
in Iran before and, in fact, exceeds the standard for virtually 
any other member of the NPT. It relies crucially upon more 
advanced technologies, many of them developed by the same 
national laboratories that you have described, and it is one of 
the reasons why that kind of advanced technology needs to be 
applied more widely not only in Iran but by the IAEA in other 
countries.
    Senator Udall. Yes. Thank you very much.
    I would just note that we were honored to have a visit from 
Chairman Corker several years back to the national 
laboratories, and we had an extensive couple of days when we 
explored all of these issues and were able to have a very good 
exchange, and we were really honored to have him.
    The Chairman.  Well, it is amazing what is happening there, 
and I know Rose and Tom will attest to this. One of the things 
that makes the thesis behind the new START Treaty be achieved 
is we have got to invest heavily in the facilities and do those 
things that we are supposed to be doing on modernization. I 
think everyone understands that Russia has the best and 
brightest scientists in their country working on their nuclear 
program. Where we are refitting and grinding out and making 
sure old warheads work well, they are developing new ones, and 
I think people understand that.
    So I hope that we will invest a lot more in the activities 
that are taking place there, and thank you for being such a 
great host.
    Senator Flake?
    Senator Flake. Thank you. Thank you for your testimony.
    I am sorry I arrived late, and hopefully you are not 
plowing old ground here.
    In 2009, President Obama said that he wanted to, within 
four years, secure all vulnerable nuclear material. It is now 
about seven years. Just give an assessment of where we are 
right now, either of you.
    Ms. Gottemoeller. Perhaps, Senator, I will just say a few 
words and then turn the floor over to Assistant Secretary 
Countryman.
    I really wanted to emphasize that we have done an enormous 
amount to basically get fissile material under better control 
and to minimize its use. Twelve countries plus Taiwan have 
given up their highly enriched uranium over the past years as 
we have been working on this problem. So we have made 
significant strides, but there is more work to be done.
    Tom?
    Mr. Countryman. Right, that is the answer. There are fewer 
countries where fissile material--that is, highly enriched 
uranium or plutonium--exists. Those countries where there are 
significant amounts of such material have enhanced their 
physical security and have enhanced their procedural security. 
In addition, we now have more than 20 nuclear security centers 
of excellence around the world in which countries can train 
their people on how to sustain those highest levels of 
security.
    So I think this progress, as well as a dozen other things I 
could mention, have substantially met the goal of focusing the 
attention of the entire world on this issue.
    Senator Flake. Thank you. How would you assess overall 
nuclear security in Pakistan?
    Ms. Gottemoeller. Tom Countryman made reference to these 
centers of excellence that have been expanding around the 
world. I will say I was able to visit Pakistan's center of 
excellence a few years ago, and they have really done an 
excellent job to establish a program there that is not only 
serving Pakistan's interest but is also serving on a regional 
basis to provide training with the help of the IAEA and so 
forth.
    So they have done quite a bit, and I have seen their 
awareness raised of issues like the necessity of personnel 
reliability, careful attention to who they are hiring into 
their complex and so forth. So, some good steps have been 
taken.
    But I will say, sir, that this is a two-sided problem, and 
the other side is not so good. We have been very concerned 
about Pakistan's deployment of battlefield nuclear weapons. 
Battlefield nuclear weapons, by their very nature, pose 
security threats because you are taking nuclear material, 
battlefield nuclear weapons, out to the field where, as of 
necessity, they cannot be made as secure. So we are really 
quite concerned about this, and we have made our concerns known 
and will continue to press them about what we consider to be 
the destabilizing aspects of their battlefield nuclear weapons 
program.
    Senator Flake. Speaking regionally, how about India? How 
would you assess the overall nuclear stability there?
    Ms. Gottemoeller. India is at an earlier stage in 
establishing their own center of excellence, but they are also 
working with us quite extensively and vigorously in the Nuclear 
Security Summit context. Prime Minister Modi will be here for 
the Nuclear Security Summit, and we have seen quite a bit of 
advancement in India's work on this problem in recent years.
    Do you want to add anything, Tom, on this?
    Mr. Countryman. No.
    Senator Flake. One more, China. Do you have an assessment 
of China's nuclear security?
    Ms. Gottemoeller. Again, we have been very glad that China 
has been working with us in the Nuclear Security Summit 
context. President Xi will be here for the summit, so they are 
paying attention to this matter at a very high level. This very 
day, Secretary Moniz is in Beijing to cut the ribbon on their 
own center of excellence to work on this nuclear security 
problem.
    I talked a moment ago about the necessity of pragmatism. I 
call these kind of bread and butter approaches to nuclear 
security, really getting the institutions in those countries to 
focus on the training, on the hardware, on putting in place the 
necessary guns, gates, and guards to take care of these 
problems, and these centers of excellence serve as a locus to 
do that kind of work.
    So again, it is a developing story with China, but we feel 
like they are taking some very important steps.
    Senator Flake. With regard to China and North Korea, we 
often say that our best leverage in North Korea is with China. 
Does China feel sufficient urgency to deal with the issue in 
North Korea of nuclear security?
    Ms. Gottemoeller. I will let Mr. Countryman take that 
question, please.
    Mr. Countryman. Of course, we do not define North Korea as 
a nuclear security issue. It is a proliferation threat, a state 
in possession now, apparently, of nuclear weapons.
    China is, I would say--there are better experts on China 
than me--but I would say it is at a point of transition. It has 
traditionally had a view of North Korea as an important buffer 
zone between China and a U.S. military presence in South Korea, 
and therefore had an interest in sustaining the regime. It 
still sees that interest, and that is very much in their 
foreign policy tradition.
    But I think it is clear that, definitely within the Chinese 
society, as well as within the Chinese government, there is a 
greater realization that the security threat to China is not 
the U.S. troops in South Korea, it is the existence of North 
Korean nuclear warheads and the likelihood that that could be 
used to start a confrontation on the peninsula. So I see it 
evolving, but I cannot say it has yet fully sunk into the 
Chinese thinking.
    Senator Flake. Thank you.
    Thank you, Mr. Chairman.
    The Chairman.  The fact is, though--I appreciate the line 
of questioning--that the world and us are less secure from a 
nuclear standpoint because of developments since 2009 in 
Pakistan, India, and China. That is a yes/no. That is true, is 
it not?
    Ms. Gottemoeller. Sir, I am not sure I agree with you 
because I do see how assiduously we are working with all of 
those countries. Again, the Nuclear Security Summit context has 
been a very good one for us to get further intertwined with the 
authorities, with the institutions in those countries who are 
working on these problems.
    The comments I made a few moments ago about the development 
of nuclear weapons in those countries, that is a question that 
has been long developing. In fact, the emergence of a nuclear 
arms race in Asia, and particularly in South Asia, is one that 
has been concerning a number of administrations over time.
    So if you are talking about the issue of nuclear terrorism, 
I do feel like we have made signal progress in that area. If 
you are talking about the development of new nuclear weapons 
capabilities, there is no question that we have some important 
and troubling modernization programs going on. We have to 
continue to wrestle with those in a variety of ways.
    The Chairman.  I do not think there is any question the 
answer is yes.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman, and welcome. I 
see that you are all appropriately dressed for the day, and I 
appreciate all the green out there.
    I have some concerns. Let me see how much I can get in in 
this line of questioning. In the case of tests of ballistic 
missiles capable of delivering nuclear payloads, whether by 
Iran or Russia or North Korea or Pakistan, does the State 
Department see any other options than following the route of 
condemnation in the U.N. Security Council to try to push back 
on this? Because condemnation does not seem to be working to 
mitigate those realities.
    Mr. Countryman. Well, first, they are significantly 
different cases among the countries you cited--Russia, 
Pakistan, Iran, and North Korea. There are specific U.N. 
Security Council resolutions and specific U.S. legislation with 
regards to Iran and North Korea, and we are, of course, 
committed to implementing those.
    In the case of--let us take Iran first. The concern in Iran 
is, first, that it is participating in a regional ballistic 
missile arms race. Even if all of these missiles being built by 
various countries in the Middle East are armed with 
conventional warheads, as we assume they will be, they are in 
themselves a destabilizing factor, and that is a recognition 
that is contained in the Security Council resolutions that 
prohibited Iran from testing or from acquiring ballistic 
missile technology.
    Now, a number have noted that the U.N. Security Council 
Resolution 2231 modified the outright ban on ballistic missile 
testing and changed it to ``call upon.'' To us, that is not a 
significant difference. But the far more important point is 
that the previous resolutions ban on providing ballistic 
missile technology to Iran remains in place.
    Senator Menendez. ``Call upon'' is not a far lesser 
standard? If I call upon you but you decide not to go ahead and 
listen to what I call upon you to do, what is the consequence? 
Nothing, right?
    Mr. Countryman. The consequence remains that, as I was 
saying, the previous resolution required all countries not to 
provide Iran with ballistic missile technology, and that has 
been the focus of our efforts over many years. We believe we 
have significantly slowed any progress Iran has made. We 
continue to implement those strategic trade controls today. We 
have partners in many countries.
    Senator Menendez. I appreciate your lengthy answer, but it 
is verbatim from what I would get from the testimony. The 
problem is that ``call upon'' is a far lesser standard, number 
one. Number two, Iran is moving forward significantly. They are 
on the verge of, or did, or are about to--I was reading about 
sending a missile into space that would change the whole 
dynamic, and it does not seem to me that we are very committed 
to creating actionable items other than condemning their 
testing.
    So, let me ask you this. You said, Mr. Countryman, that the 
summit is going to--a large part of the summit's work is going 
to be taken over by the IAEA; is that correct?
    Mr. Countryman. A significant portion, yes.
    Senator Menendez. Significant portion. How important is 
that?
    Mr. Countryman. Well, important in many different 
dimensions. First of all, it is important that there is a body 
with near-universal membership, that is the International 
Atomic Energy Agency, that also has the technical capability to 
take the standards developed in this smaller voluntary group 
and make them global and to follow up in a persistent way. So I 
think that the IAEA's reputation and its ability to set global 
standards----
    Senator Menendez. So it is going to be important.
    Mr. Countryman [continuing]. It is very important, and it 
is also important for enhancing the overall reputation.
    Senator Menendez. It is going to be very important. So here 
is what my concern is. When Secretary Kerry appeared before the 
committee to discuss the budget, I raised the U.S. Government 
Accountability Office report that I commissioned along with 
Senator Kirk. In that report, the GAO's preliminary findings 
raised significant concerns about the challenges and 
limitations that the IAEA faces.
    To name a few: a limited budget from irregular funding 
sources; human resource shortfalls; certain important equipment 
operating at capacity already; limited analytical capabilities 
that will be tested by the new mandates of the JCPOA, forget 
about anything they are going to do in pursuit of the summit; a 
need for $10 million per year for the course of 15 years above 
its present budget; as well as a lack of authorities. It will 
have to depend to a significant degree on the cooperation of 
the Iranian state. And the GAO's preliminary observations point 
directly to future problems with monitoring and verifying and 
meeting the requirements of the JCPOA.
    So my point is if, in fact, we have the challenges that the 
GAO report talks about, the JCPOA, while we still want the IAEA 
to be a central important international body to deal with all 
these other issues that we are talking about, are we not 
putting a significant part of our national security interests 
in an agency that is underfunded, understaffed, does not have 
the human resource capacity, and is going to depend to a large 
degree on the voluntary actions of others?
    Mr. Countryman. First, I would say that the additional 
duties that are being transferred from the Nuclear Security 
Summit to the IAEA are not what will break the bank for the 
IAEA. Second, I absolutely agree that the significant 
additional costs of the Iran implementation add to the IAEA's 
budget concerns. The good news here is that a number of 
countries--dozens around the world--have made clear their 
commitment to fund the extra costs above the ordinary 
monitoring costs associated with Iran.
    Senator Menendez. So we have covered the budget for the 
next 15 years at the rate that the IAEA and the GAO says is 
necessary.
    Mr. Countryman. I do not have a concern that we will be 
unable to meet the JCPOA's specific costs that are above the 
normal safeguard monitoring costs. But it goes back to a 
point--and I am glad you asked it--that I made in my opening 
statement. I would like to see this administration and this 
Congress make a long-term commitment to steadily expanded 
resources for the International Atomic Energy Agency because, 
yes, it is that central to U.S. security and to global 
security.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman.  Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you to the witnesses for your time today.
    Just to follow up on some discussion of the IAEA and the 
JCPOA, the material we ship to Russia, do we have assurances 
that that is being stored safely and that the IAEA has access 
to those, or the inspection regime is being carried out and a 
plan to do that?
    Mr. Countryman. I need to check to get you a more precise 
answer, but I do not believe that we have any concerns about 
that material once it is in Russia. It is not going back to 
Iran. It adds to a very large stockpile of enriched uranium in 
Russia. We do not have a concern about Russian misuse.
    Senator Gardner. If you could get back to us on that.
    Mr. Countryman. I will.
    [Mr. Countryman's response to Senator Gardner's question 
follows:]


    Mr. Countryman. Under the Joint Comprehensive Plan of Action 
(JCPOA), Iran is allowed to maintain a total enriched uranium stockpile 
of no more than 300 kilograms of up to 3.67 percent enriched uranium 
hexafluoride (or the equivalent in different chemical forms) for 15 
years. To meet this JCPOA requirement, Iran shipped nearly its entire 
stockpile of low-enriched uranium (LEU) to Russia in December 2015, 
including all nuclear material enriched to near-20 percent not already 
fabricated into fuel plates for the Tehran Research Reactor. With the 
exception of partially fabricated fuel and targets, this Iranian-origin 
nuclear material is now owned by Russia per the terms of Iran's 
commercial arrangements with Russia, and Iran no longer has any claim 
to the material. Consistent with the JCPOA, partially fabricated fuel 
and targets in Russia will be returned to Iran in small increments for 
use in the Tehran Research Reactor, subject to conditions decided upon 
by the Joint Commission.
    Russia is one of the largest holders of nuclear material globally, 
and Iranian-origin LEU in Russia adds a marginal amount of material to 
Russia's total stockpile. Like the United States, as a Nuclear Weapon 
State under the Non-Proliferation Treaty (NPT), Russia has a 
``voluntary offer'' safeguards agreement with the International Atomic 
Energy Agency (IAEA), which allows the IAEA to apply safeguards to 
nuclear material in certain facilities if Russia so chooses. There is 
no requirement that the IAEA apply safeguards to nuclear material in 
Russia, including the material removed from Iran, which is not 
currently under IAEA monitoring. The United States has partnered with 
Russia for many years to ensure that Russian nuclear facilities meet 
internationally recognized standards with regard to safety and 
security, and we expect that Iranian origin material in Russia will be 
stored safely and securely at the same standard as Russian origin 
material.


    Senator Gardner. For the inspection regime and the plan for 
that, that would be fantastic.
    In April of 2009--actually, let me follow up a little bit 
more with Iran as well. There had been reports in January after 
the North Korea nuclear test of continued cooperation, 
communication between Iran and North Korea regarding nuclear 
proliferation and other issues. There were even some reports 
that Iran was believed to be housing some nuclear weapons-
related technology in North Korea.
    Could you talk, either one of you, about any involvement or 
linkage between North Korea and Iran in terms of nuclear 
issues?
    Ms. Gottemoeller. Sir, these are very sensitive matters 
that we can provide a very serious briefing on in another 
setting. What I will say, and it adds to the point that 
Assistant Secretary Countryman made a moment ago, we have gone 
beyond using things like the U.N. Security Council resolutions 
to building up other capacity, for example through the 
Proliferation Security Initiative. We have major capacity-
building efforts going on throughout Asia that have led to a 
wide-ranging partnership, a lot of countries in the region, 
transit countries, places where shipments flow through like 
Singapore and so forth, working very closely with us to enhance 
abilities to interdict those kinds of shipments.
    So I did want to get the point on the table that there are 
other ways we have gone about working these problems as well, 
including the missile technology control regime, longstanding 
technology controls that are internationally embraced and 
implemented. There are a lot of ways we go about handling these 
problems.
    But in terms of your precise question, to get you precise 
answers, we would have to take it to a different setting.
    Senator Gardner. Then perhaps in this setting, without 
going into areas where we cannot talk in an open setting here, 
are we concerned about--are you concerned about an Iran-North 
Korea axis on nuclear issues?
    Ms. Gottemoeller. We watch this, yes, very, very closely.
    Senator Gardner. Thank you. And if detected--again, this 
may be something that you cannot answer here. Are we more 
concerned recently in activities between the two nations?
    Ms. Gottemoeller. I would say it has been a constant, 
steady concern that we have just kept an eye on.
    Senator Gardner. We would love to talk about that further 
in a different setting.
    In April 2009, President Obama said in a speech in Prague, 
``Rules must be binding, violations must be punished, words 
must mean something, the world must stand together to prevent 
the spread of these weapons. Now is the time for a strong 
international response, and North Korea must know that the path 
to security and respect will never come through threats and 
illegal weapons. All nations must come together to build a 
stronger global regime, and that is why we must stand shoulder 
to shoulder to pressure the North Koreans to change course.''
    Could you talk a little bit about North Korea, the threat 
that North Korea poses to the administration's nuclear agenda, 
and what it means to ``punish North Korea,'' what means we have 
to punish North Korea that we have employed, and are additional 
considerations being made in addition to the executive order 
last night and others?
    Ms. Gottemoeller. Yes. Thank you, sir, for raising the fact 
that the President signed a new executive order last night 
that, in effect, puts in place all the authorities needed to 
implement the legislation worked out with the Congress, which 
he signed into law, and also then enables and enhances our 
ability to implement the U.N. Security Council resolution.
    Let me take just a minute to talk further about what went 
into the U.N. Security Council resolution. It went far beyond 
what we have ever done in the past to sanction North Korea and 
in particular zeroed in on their ability to ship goods in and 
out of the country. It has put significant, significant 
constraints on their ability to ship by sea, by rail, and here 
it was important to ensure that China was ready to come along 
because China in the past had not been ready to put in place 
such intensive and tight sanctions, constraints.
    So I do think that there is a qualitative difference about 
this U.N. Security Council resolution, first of all that will 
really shut down shipments in and out of North Korea. That is 
one. But the second point is it is also targeting luxury goods. 
We have a problem in Iran. We knew that there was a politically 
active middle class that was providing a kind of leverage on 
the top leadership to make some decisions about coming along 
with the JCPOA P5+1 negotiations. It is not the same kind of 
situation, a different kind of society, a different kind of 
economy in North Korea. So we feel that the importance of these 
constraints on the shipment of luxury goods into North Korea 
get at precisely that elite, and so also have the potential to 
have greater leverage than we have been able to have in the 
past.
    So I do think that we are in a better place, but the proof 
of the pudding is in the making, is this going to be 
implemented or not, and that is what we are focused on now.
    Senator Gardner. And it is my understanding that China is 
not going to take action on its own beyond the Security Council 
resolution--is that correct?--when it comes to this issue, 
proliferation of nuclear issues?
    Ms. Gottemoeller. Do you want to take that?
    Mr. Countryman. Yes. A couple of points on that question 
and to add to what the Undersecretary said. In dealing with 
North Korea and finding the levers that will influence its 
behavior, you have to be realistic. This is a regime that has 
prioritized missile and nuclear development above feeding its 
own people, and that limits what you can do. It means that we 
do have to focus on two pressure points. One is hard currency 
earnings, and the other is the elites of the regime who support 
the beloved marvelous leader, how to have a direct effect upon 
them, and that is why this Security Council resolution goes 
into such mind-numbing detail, has to get down to close 
exemptions, and clarify questionable interpretations from 
previous resolutions. In that sense it is very strong, but you 
have to realize that you are working at a target that has few 
openings.
    As far as China goes, we do not assume that Chinese support 
for a strong resolution is the same as a Chinese determination 
to implement that resolution faithfully. But we also do not 
assume they will not do it. They have made clear they are ready 
to work with us on detailed implementation and consultation on 
a range of issues with regard to this resolution.
    What they are prepared to do on the political side that 
goes beyond implementation of this resolution, I am sorry, is 
not my field.
    Senator Gardner. Yes, I understand, Secretary Countryman.
    If I may, Mr. Chairman, just one additional question on 
China.
    A March 9th, 2016 report by the Institute for Science and 
International Security, North Korean efforts to produce 
indigenous fuel for the IRT reactor at Yongbyon appeared to 
have started several years ago. One sign was North Korea's 
2012--this is according to the report--procurement in China of 
a considerable amount of foreign equipment, in fact a complete 
production line for making this fuel, according to a source 
knowledgeable about North Korea's nuclear programs.
    Do you know if that statement is accurate that was reported 
by the Institute for Science and International Security?
    Mr. Countryman. I do not. I will check. I will just say 
that I have previously said before this committee that the 
Chinese economy has been the primary source of advanced nuclear 
and ballistic technology and materials for North Korea for a 
long time.
    Senator Gardner. And do we know the name of the entities 
that are responsible for that?
    Mr. Countryman. On the Chinese side or on the Korean side?
    Senator Gardner. The Chinese side.
    Mr. Countryman. On the Korean side, I think we do. On the 
Chinese side, I will have to check the exact report and get 
back to you.
    Senator Gardner. And have we issued any kind of sanctions 
on entities that we may have identified for such a technology 
transfer exchange?
    Mr. Countryman. For transfer of technology to Iran.
    Senator Gardner. Or sales of equipment, yes.
    Mr. Countryman. We have previously sanctioned Chinese 
entities. We do that on a regular basis according to the 
evidence. I have to check on this particular case.
    Senator Gardner. But that was for Iran. We have not done 
that for a China/North Korea exchange.
    Mr. Countryman. I will have to check. I believe we have, 
but I have to double check.
    Senator Gardner. Thank you.
    The Chairman.  Thank you, sir.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman. I thank the 
ranking member, Senator Cardin, for his indulgence, allowing me 
to go at this time.
    So, the first time I ever sat in this committee was in May 
of the year 1980, and Senator Glenn was the subcommittee 
chairman of nonproliferation, and the United States had decided 
that it was going to sell 55 tons of uranium to India without 
any full-scope safeguards. The Pakistanis were going crazy, 
very upset. Warren Christopher sat here to defend it. I was 
going to make the proposal in the House to defeat it. I was 
successful in defeating it in the House. Senator Glenn made it 
here in the Senate and he lost by one vote, and that uranium 
went on to India without full-scope safeguards, and ultimately 
Pakistan did react in terms of its nuclear program. It just 
created a syndrome. That was 1980.
    So here we are, we are talking about India and Pakistan, we 
are talking about the nuclear proliferation. And, by the way, 
the 2008 nuclear agreement with India created a similar dynamic 
where they were able to choose which one of their plants was 
under full-scope safeguards, and the Pakistanis said they would 
ramp up their production plutonium reactor to match it in order 
to create more nuclear weapons.
    So all of that is part of the question I am about to ask, 
which just turns to the Chinese, the Japanese, and the Korean 
situation, and the domino effect that unfolds if the U.S. does 
not give the leadership up front.
    But I would like to just begin by thanking all of you for 
your lifelong commitment to nuclear nonproliferation, and to 
Secretary Tauscher, my old pal, for her lifelong commitment to 
it as well.
    So both the Chinese and Japanese reprocessing plans are 
supported by the French state-owned firm Areva, and media 
reports have suggested that French leaders have been actively 
encouraging both Japan and China to maintain their plans to 
reprocess. In the past, the United States had succeeded in 
preventing the spread of reprocessing facilities in East Asia 
by persuading our French allies not to spread this technology 
to additional countries.
    Have you or anyone else in the administration discussed the 
dangers of large-scale plutonium reprocessing in East Asia with 
French leaders?
    Mr. Countryman. Yes.
    Senator Markey. And what is the response that you have 
received from them?
    Mr. Countryman. Without going into detail on a confidential 
exchange, I would note that the French have progressed more 
than other countries in designing a nuclear fuel cycle that 
makes intelligent and nearly economically rational use of 
plutonium. They believe that it can be done. We have concerns, 
not about the French record or about French security or French 
commitment to nonproliferation, but we have a different set of 
concerns in Asia, and that is the point that I made to French 
counterparts.
    Senator Markey. Well, and what is that additional concern?
    Mr. Countryman. The additional concern, as you and a couple 
of other senators have noted, is there is a degree of 
competition among the major powers in East Asia. It is a 
competition that, in my view, extends into irrational spheres 
such as, ``Hey, they have this technology; we have to have it 
too.'' No matter that it is a technology that makes no economic 
sense and that would not improve their standing in the world.
    Senator Markey. Perfect. Thank you. So that is my 1982 
book, ``Nuclear Peril: The Politics of Proliferation,'' which 
is about how it will just unfold and India will beget Pakistan, 
Pakistan will beget Iran, et cetera, et cetera.
    Mr. Countryman. I do not quite see that linear connection, 
but----
    Senator Markey. Well, it all becomes a big competition, 
that is all I am saying. The politics of it is you are not a 
real nation unless you can do it too. You do not get the 
respect if you cannot do it.
    So the nuclear cooperation agreement between the United 
States and Japan will need to be renewed in several years. The 
current agreement, signed in 1988, provides advance consent for 
Japan to transfer spent fuel to Europe for reprocessing.
    As the next administration considers a new nuclear 
cooperation agreement with Japan, what steps should it take to 
reduce Japan's reliance on reprocessing and to encourage it to 
rely on alternative means for disposing of spent fuel?
    One of the dangers of Chinese and Japanese reprocessing, 
obviously, is that it will create pressure on South Korea to 
pursue its own reprocessing efforts, and that would undermine 
our efforts to achieve the de-nuclearization of the Korean 
Peninsula and to prevent North Korea's nuclear ambitions from 
creating further pressures for proliferation.
    So what are our conversations with Japan? Do they 
understand this politics of proliferation issue and how 
ultimately they are less safe rather than more safe if they 
move in that direction?
    Mr. Countryman. A number of points there. But to the 
central question, first it is important to note that the 
Japanese plant at Rokkasho is not currently in operation. There 
is no plan to begin operation before 2018. The Chinese plant by 
Areva that you referred to is not yet built, not yet a contract 
to build it, although the Chinese certainly know how to do 
reprocessing on their own.
    In terms of conversations with Japan and other Asian 
partners, we are doing that both on a more technical level 
through the Department of Energy, and on a level of security 
and nonproliferation interest through the Department of State. 
We think that there are genuine economic questions where it is 
important that the U.S. and its partners in Asia have a common 
understanding of the economic and nonproliferation issues at 
stake before making a decision about renewal of the 123 
agreement, for example, with Japan.
    Senator Markey. Well, the more pressure, the better, from 
us. We cannot preach temperance from a bar stool. We have to 
have the highest standards in the world, and we have to impose 
them, especially in this area, in any country that we have 
influence over.
    Finally, as part of the Pentagon plan for new nuclear 
weapons, the Pentagon has proposed development of a new nuclear 
air-launched Cruise missile with significantly altered features 
including improved range, stealth, and precision. The 
administration is also planning to upgrade the B-61 gravity 
bomb with a new tail kit that would allow for improved 
targeting, permitting the warhead to have a similar yield. 
These improvements have led former Secretary of Defense William 
Perry to suggest that the Pentagon's modernization plans could 
make it easier for future presidents to conduct so-called 
limited nuclear wars. And as retired Vice Chairman of the Joint 
Chiefs of Staff, General James Cartwright, told the New York 
Times in January, ``What going smaller does is to make the 
weapons more thinkable.''
    Secretary Gottemoeller, in your view, do these plans make 
us safer, or do they potentially make the world more dangerous?
    Ms. Gottemoeller. First, I would like to talk about the B-
61, if I may, sir. The President, in his nuclear posture view 
and forward in its implementation, has stressed that we will 
not create any new nuclear weapon capabilities. I know that 
there have been commentaries in the outside media among experts 
in this regard, but, in fact, that is not the case. There are 
no new missions, no new capabilities inherent in these life-
extended B-61 bombs. In fact, the way that the B-61 is going 
through a life extension program is so as to consolidate 
several different types of B-61 into a single B-61 so-called 
12, and that in effect allows us to think about further 
reductions in our gravity bombs because we are able to 
consolidate essentially the different types that were applied 
to different missions into a single type. But there are no new 
missions being developed for the system, no new capabilities.
    Senator Markey. So you are saying it will not have improved 
targeting, and it will not have a smaller yield, and it will 
not be, as a result, more usable?
    Ms. Gottemoeller. I do not agree with that statement, sir. 
I do not think nuclear weapons are very usable, period.
    Senator Markey. I understand that, but again----
    Ms. Gottemoeller. And certainly I do want to tie it back to 
the nuclear posture view and the President's policy agreed by 
our entire administration, including the Pentagon, that we want 
to deemphasize nuclear weapons in our national security 
doctrine, and we have effectively done so over the past seven-
plus years at this point, and that will continue to be the 
trajectory of our policy.
    Senator Markey. I guess I would say--thank you, Mr. 
Chairman--that as the Iranians seek to miniaturize and make 
them more precise, as we do the same thing with one of our 
weapons, again we are preaching temperance from a bar stool. We 
have to basically not try to make them more usable ourselves.
    Thank you, Mr. Chairman.
    The Chairman.  Thank you. Thank you very much.
    Now we will move to someone who has been involved in 
proliferation on his own, the articulate Senator Rubio, who we 
welcome back to the dais. Thank you so much for being here 
today.
    Senator Rubio. Well, thank you very much.
    Secretary Gottemoeller, I wanted to ask you, what is the 
administration's plan to respond to Russia's request under the 
Open Skies Treaty to allow surveillance planes with high-
powered digital cameras? I know there has been a lot of concern 
about that in open press.
    Ms. Gottemoeller. Yes, sir. Let me just say a word about 
the Open Skies Treaty. It is a treaty that was first created by 
President Eisenhower, by General Eisenhower back during the 
1950s. He saw it as a benefit to us and our allies to have the 
kind of mutual confidence building that would come from being 
able to fly airborne platforms over the Soviet Union at that 
time. So I want to stress, first of all, that this treaty is 
completely reciprocal. In fact, the Russians have a quota of 
about 20 flights a year. They have used three or four of those 
flights in the last couple of years. We fly much more 
frequently over the Russian Federation with our allies and 
partners in Europe than they fly over the United States. So 
that is just some basic facts about the treaty.
    With regard to the digital sensors you mentioned, that was 
written into the treaty when it was negotiated. We are seeing 
the end of what film cameras, our own guys, can get their hands 
on film for the cameras. It has simply become an obsolete 
technology, as everybody who has gone out and bought a digital 
camera will recognize. So in order to continue to implement the 
treaty, all treaty partners are now looking at digital cameras. 
We ourselves will want to deploy digital cameras in the future.
    One final point about how this treaty and the Russian 
platform differs from a kind of spy platform, one of their 
national technical means, one of their satellite birds, 
something like that. It differs because we are closely 
intertwined with how they implement. Our technicians are on 
those planes when they fly across the country. We get every 
single photograph they take, so we can see what they are 
photographing. That is much different from national technical 
means. We do not know what they are photographing, what their 
satellites are----
    Senator Rubio. I guess my question is, how does the 
administration intend to respond? Is it your testimony, then, 
that we view their request as in compliance with the agreement?
    Ms. Gottemoeller. It is absolutely in compliance with the 
agreement. It is something we are going to want to do.
    Senator Rubio. So is Russia in full compliance with the 
treaty, given it imposes restrictions on territory that is 
subject to this surveillance?
    Ms. Gottemoeller. If I could just make one final point on 
the last thing. National technical means we can mitigate; 
sometimes we know what is happening. But with Open Skies, we 
have the right under the treaty to take mitigating measures. If 
we do not want the Russians to see something, we can mitigate, 
and we plan for that and think about it. So that is one final 
point.
    Senator Rubio. Territory. There are restrictions on where 
they can go.
    Ms. Gottemoeller. Yes. We are concerned, and if you have 
had a chance to look at our compliance report in the last year 
you will see there are several concerns laid out about these 
restrictions that the Russians are placing, for example on our 
ability to fly close to what we consider and everybody else 
considers sovereign Georgian territory. The Russians say we do 
not want you flying close to South Ossetia. So these are 
compliance concerns. We have raised them with the Russian 
Federation. We have just been----
    Senator Rubio. What about domestically, in the U.S.?
    Ms. Gottemoeller. In the U.S.?
    Senator Rubio. Yes. I mean concerns about territorial 
limitations on them. Are they in compliance with the agreement 
in terms of what it imposes on them over U.S. territory?
    Ms. Gottemoeller. We essentially ourselves are in 
compliance with the treaty, so we let them fly according to 
proper requests over U.S. territory.
    Senator Rubio. Have they exceeded--have they asked to go to 
areas that are not necessarily part of the treaty? In essence, 
for example, over the U.S. electrical grid and other sorts of 
areas? There has been open-source reporting that these flights 
are taking pictures of and looking at areas that are not 
national defense related, per se, but in fact have to do with 
our electrical grid and other things of this nature. I have 
seen the open-source reporting. So, is there a concern about 
that?
    Ms. Gottemoeller. Right. So I think we have to take account 
of the fact that their national technical means, their spy 
satellites and other means are constantly photographing our 
entire territory. Again, they have the right to photograph. 
They have to file their flight plans, though. They have our 
experts on board, our technicians, and we get the photos that 
they take, and so do all the other treaty partners. So I think 
there is actually an advantage, because then we know what is 
interesting to them. There is an advantage to us.
    Senator Rubio. So let me read you a quote from General 
Stewart, the Director of the IAEA, who recently testified 
that--here is his quote. He said, ``I have great concern about 
the quality of the imagery, the quantity of the imagery, the 
ability to do post-processing of digital imagery, and what that 
allows them to see as foundational intelligence that I would 
love to have personally and I would love to deny the Russians 
having that capability.''
    So I signed a letter with my Democratic and Republican 
colleagues on the Senate Intelligence Committee highlighting 
the concerns of professionals such as these about this request. 
Is he wrong in this statement?
    Ms. Gottemoeller. General Stewart has particular 
responsibilities related to intelligence collection, national 
technical means. I do want to stress that the Open Skies Treaty 
is an arms control treaty with a larger set of goals and 
purposes, among them confidence building, mutual confidence 
building. So I do think that the treaty has a great value in 
that regard. It has a great value to our allies and to our 
partners, such as Ukraine. Ukrainians made great use of the 
treaty during this terrible crisis with Russia.
    So I do think we need to bear in mind that the purpose is 
somewhat different from national technical means. It has a 
larger purpose, which is mutual confidence and predictability, 
and the predictability is of great value nowadays. So I think 
General Stewart and I have a somewhat different view of the 
utility of the treaty, but certainly I understand his 
responsibilities and what they entail.
    Senator Rubio. You talked about this, so let me ask you one 
more question. How can we trust that Russia is sharing 
information acquired through the treaty with the treaty 
partners?
    Ms. Gottemoeller. Because we are there as they take the 
pictures, and we know what they are taking, and we get the 
material, basically.
    Senator Rubio. So we have full confidence that they are, in 
fact, sharing the information that they are acquiring?
    Ms. Gottemoeller. Yes, we do. And, sir, I just wanted to 
take note that there has been, to my knowledge, a recent study 
that has come out. It is classified in nature, but I think you 
and your colleagues would benefit from seeing it. It has just 
come out in the last couple of days, so I think it would be 
well worth getting it to you for a review of it.
    Senator Rubio. Okay. Thank you.
    The Chairman.  Senator Cardin?
    Senator Cardin. Once again, thank you all for your work.
    Let me make a couple of observations. In regards to North 
Korea, I think it was good news that we were able to get, 
through U.S. leadership, the Security Council action against 
North Korea, including, of course, the support of China. Now, 
as you pointed out, Secretary Gottemoeller, it is going to be 
up to us to enforce that resolution, particularly China in its 
actions, in order to make those sanctions really hold. I think 
that is going to be a challenge, but I think we need to focus 
to enforce the international sanctions against North Korea.
    In regards to Iran, I was listening to the exchange with 
Senator Menendez. To me, I agree with Senator Menendez as to 
the difference in the tone of the resolution as to the previous 
resolutions. The issue is that enforcing the ballistic missile 
restrictions is totally consistent with the JCPOA. We have said 
that several times. The President of the United States has said 
that.
    So having a statutory basis for these violations to me is 
something that would help the U.S. in making it clear that we 
will not allow Iran to violate its ballistic missile 
restrictions and that there will be penalties if they do, 
regardless of whether the Security Council is capable of 
passing sanctions or not. We certainly hope the Security 
Council will pass sanctions.
    So it seems to me that helps you and that you should be 
working with Congress in order to achieve that type of 
authority and make it clear to our international partners that, 
yes, we would like to see the international community move 
forward. That is our intention for illicit activities by Iran. 
But if not, the United States, we already have the authority 
but we are going to give you the statutory authority to move 
forward in that area. I would think that would be helpful.
    And I want to put into the record--Secretary Countryman is 
shaking his head in an affirmative direction. So, Mr. Chairman, 
we have the administration's support for that.
    The Chairman.  So entered.
    Senator Cardin. The other issue I would just like to 
comment on is Pakistan. There has been an exchange here with 
regard to Pakistan and their activities. It is obviously very 
distressful that they will not work with us on a fissile 
material treaty and that they are producing materials at a very 
fast rate. When we look at our relationship with Pakistan, we 
look at a partner that we hoped would be fighting ISIL and 
dealing with their safe havens and their border areas, the 
mountainous border areas with Afghanistan. So the attentions 
that they are paying to their nuclear development seems to be 
inconsistent with where the priorities need to be in that 
region.
    So it is somewhat frustrating that we have not made more 
progress, particularly when they are seeking stronger help from 
the United States in regards to their security measures. I know 
Senator Corker has commented about that in the past, and I do 
think that this is an issue that needs to be engaged with 
Pakistan as we deal with some of the other security-related 
issues.
    That was not the question I was going to ask. The question 
I want to ask is, in this Nuclear Security Summit, could you 
just share with us whether there will be an opportunity to 
expand beyond radiological weapons but to deal with weapons of 
mass destruction? We have seen too many examples where weapons 
of mass destruction have been used against, in many cases, a 
civilian population. Is there an effort being made in this 
security conference to deal with other than just radiological 
weapons?
    Mr. Countryman. The agenda for the Summit itself includes 
four sessions in which the presidents and prime ministers and 
other leaders present engage in a free-flowing discussion. That 
is the most interesting thing, really, about this process, is 
it is not a United Nations meeting where everybody stands up 
and reads their 10-minute speech. It is actually a discussion, 
and the final session includes a discussion among the leaders 
about how to extend the lessons learned from the Nuclear 
Security Summit process into combatting other weapons of mass 
destruction and preventing terrorist access to other weapons. 
So, yes, that is part of the transitional legacy of this 
summit.
    Senator Cardin. And does the U.S. have an intent to be 
engaged on this particular subject of dealing with weapons of 
mass destruction?
    Mr. Countryman. We are deeply engaged across the board, 
particularly in working with the countries of the Middle East 
that are seeking to ensure that Da'esh does not acquire weapons 
of mass destruction technology in the Middle East.
    Senator Cardin. The other area that I mentioned in my 
opening statement is the absence of Russia that is very much 
believed to be part of the status of our current relationship 
with Russia, the problems in Ukraine and elsewhere. But it also 
has been clear that when the United States and Russia have 
worked together, particularly on the technical aspects of 
nuclear security, that there are better results.
    So are we still having that type of conversation with the 
Russians as it relates to implementing some of the technical 
aspects of nuclear security issues?
    Ms. Gottemoeller. Very much, Senator. In fact, we are 
continuing to work with them on removal of highly enriched 
uranium from countries around the world. Uzbekistan was a 
recent project of that kind where they worked with us, and we 
already talked about the removal of enriched uranium, highly 
enriched uranium from Iran. So they have been willing to step 
forward.
    Frankly, it has been rather puzzling to us, first of all, 
why they did not want to remain involved in the Nuclear 
Security Summit, but also why they have not been eager to 
continue to expand under this agreement that was negotiated and 
signed in June of 2013, the so-called NEPA agreement, why they 
have not been willing to move forward with further nuclear 
security cooperation. My personal assessment is that it has 
fallen prey to the downturn in our relationship.
    But it is very interesting that they have picked and chosen 
what they want to continue to work with us on. You mentioned 
several important projects already. Another one was the removal 
of 1,300 tons of chemical weapons from Syria. They were a close 
partner in that effort, and they have been a close partner in 
the implementation of the JCPOA not only on the removal of HEU 
but on other matters.
    So it is a very interesting conundrum, in my view.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman.  Thank you.
    Senator Risch?
    Senator Risch. Thank you.
    Ms. Gottemoeller, you mentioned that the Open Skies Treaty 
had the value of being a confidence building matter, 
enterprise. I have to tell you that I find that view 
delusional, to be honest with you. I do not understand how 
anything dealing with the Russians could be characterized as 
confidence building under the present circumstances that we 
have with the Russian Federation today. So with all due 
respect, I think you guys are going up a blind alley there.
    I want to talk about your own report, the State 
Department's compliance report that states--and this is, again, 
referring to the Open Skies Treaty. Your own report states that 
Russia routinely prohibits U.S. flights over Russian territory 
in the Caucuses, around Moscow, and in Kaliningrad, and 
regularly denies priority access to airfields and air traffic 
control when we are trying to conduct those flights.
    What are you doing about that?
    Ms. Gottemoeller. Senator, I will stress, first of all, 
that these appeared in the compliance report because they are 
very serious compliance concerns that we have----
    Senator Risch. Absolutely.
    Ms. Gottemoeller [continuing]. About the behavior of the 
Russian Federation. So I absolutely agree with you about that, 
sir.
    Senator Risch. What are you doing about it?
    Ms. Gottemoeller. What we are doing about it is we have 
linked arms with our allies and we are getting now--well, we 
are already in the course of talking to the Russians about many 
of these problems, but getting ready for a coordinated effort 
to work together with them to solve. We consider these 
compliance problems, and we want to get them solved because we 
see the importance of this treaty.
    Senator Risch. So, in fact, you have done really nothing 
about it at this point, other than getting ready. Is that what 
you are saying?
    Ms. Gottemoeller. No, I would not say that, sir. We have 
been raising these issues over time, but I will say that we 
want to redouble our efforts now, and the other thing that we 
have done is essentially we have dialed back on any flexibility 
that we may have shown in the past. So we are essentially 
really taking a very stringent approach to implementation of 
the treaty with regard to the Russians now.
    Senator Risch. With all due respect, I do not find anything 
you have told me comforting.
    Thank you, Mr. Chairman.
    The Chairman.  We have a second panel, and we are getting 
ready to introduce them. I want to thank you both for being 
here. This committee is the one committee--there may be others, 
but it has been one where we have worked strongly in a 
bipartisan way and tried to resolve our issues and tried to, 
even when we disagree, to disagree agreeably.
    I have to say, again, I have had many personal meetings, or 
at least encounters, with both of you, and I respect you 
personally. I do find that it is a little--both of you are 
career people. It is not as though you have come in as 
political appointments. You have been doing what you have been 
doing for a long, long time. Look, I do not think there is any 
doubt that today there is more potential for nuclear conflict 
than there was in 2009, no question. And even though we have 
made some strides relative to nuclear security relative to 
elements getting into terrorists' hands, as was mentioned, and 
we mentioned some of the accomplishments that have occurred, 
the potential for a military miscalculation in nuclear weapons 
today is higher by far, by orders of magnitude, than it was in 
2009.
    I am just going to say that I get disappointed when I see 
career people that are professional that come to these hearings 
and gloss over, continue to talk about the glass as half full, 
when we have gone significantly downhill relative to nuclear 
proliferation.
    So again, I did not expect this hearing to be as it turned 
out to be today. I am disappointed that there is not an 
acknowledgement of the reality that exists around the world. 
There are little segues and mentionings of things that are 
problems, but it just does not seem with the two of you--I am 
sorry--to be a realization that we have been on a very negative 
slope relative to this issue. People are not honoring treaties. 
Asia is going in a very different direction than we had hoped. 
And yet, you all are here telling us how, gosh, we have done a 
wonderful job.
    So I just want to express my disappointment with the two of 
you being here today and your testimony. I am sorry. I have 
been concerned about national security issues for some time. 
Candidly, today, the highlighting of this particular issue 
today has heightened that because, again, it just seems to me 
we deal in a world that does not focus on reality.
    So again, I thank you for your service. I really do thank 
you for your service. That is sincere. I am disappointed in 
your testimony today, and I am sorry, I just am. I am very 
direct and transparent in my thinking and feeling, and I am 
just disappointed in the lack of urgency, seriousness around 
the way the world is going relative to these issues in your 
testimony today.
    Yes, sir?
    Senator Cardin. Mr. Chairman, first of all, I think this 
has been a very helpful hearing. It is an open session, as it 
should be an open session. Some of the issues that we need to 
talk about must be in closed sessions, and I think that might--
we have had those discussions in the past, and I think we need 
to have them going forward because I think some of these issues 
only can be adequately discussed in a closed session.
    I just take a different view of the progress we have made, 
not just during the Obama administration but also during the 
George W. Bush administration and previous administrations in 
dealing with the realities that it is a much more dangerous 
world out there with states that will do things that are 
unthinkable, but they will do it, and the support of terrorist 
organizations, and the strength that terrorist organizations 
have.
    But when we look at the record over the last couple of 
decades, including the Obama administration, the amount of 
controls over nuclear materials has been strengthened pretty 
dramatically, and the reductions of nuclear weapons has been 
pretty dramatic when you look at the numbers and when you look 
at the risk factors.
    So I think we have made constant progress on nuclear 
security. Do we have to make more? You bet we do, when you have 
factors like North Korea and Iran and other states that have 
been mentioned, and when there are two countries that dominate 
the nuclear discussions, which are Russia and the United 
States.
    So I am frustrated we cannot have a safer environment. I 
would like to see more progress. But I think a lot of this is 
just the dangerous situations we have in the world, and I very 
much admire both Secretary Countryman and Gottemoeller for the 
incredible patience that they have had and effectiveness in 
dealing with people that we would find very difficult sitting 
down for any length of time because of their attitudes towards 
some of the global issues.
    So with that in mind, I would hope that we would continue 
to find ways in which our committee can stay engaged in these 
discussions.
    The Chairman.  Thank you.
    Thank you again for your testimony. I know that you know 
the record will remain open. I know that you all respond 
promptly to questions, and I look forward to seeing you in 
other settings.
    Ms. Gottemoeller. Thank you, Mr. Chairman. Thank you, Mr. 
Cardin.
    The Chairman.  We will now move to the second panel that 
will consist of two witnesses.
    The first witness is Mr. Will Tobey. Mr. Tobey is a Senior 
Fellow at Belfer Center for Science and International Affairs 
at the John F. Kennedy School of Government. We thank you for 
your contribution today.
    Our second witness will be the Honorable Ellen Tauscher, 
who we have all gotten to know well and appreciate her 
contributions on national security at many levels. She served 
as Undersecretary of State for Arms Control and International 
Security from 2009 to 2012.
    I want to thank you both for being here. As you know, 
second panels are often not as well attended as first panels, 
but the contributions you make to the record and our 
understanding is much appreciated.
    With that, Mr. Tobey, if you would begin?

   STATEMENT OF HON. WILLIAM H. TOBEY, SENIOR FELLOW, BELFER 
 CENTER FOR SCIENCE AND INTERNATIONAL AFFAIRS, JOHN F. KENNEDY 
              SCHOOL OF GOVERNMENT, CAMBRIDGE, MA

    Mr. Tobey. Chairman Corker, Ranking Member Cardin, it is a 
great pleasure to be before the committee again.
    I was asked to address seven important and difficult 
questions with the invitation. I will divide my answers into 
two parts, nonproliferation and nuclear security.
    The administration's nonproliferation policy was defined by 
President Obama's April 2009 Prague speech, which listed his 
objectives. First came a pledge to seek peace and security in a 
world without nuclear weapons, although he acknowledged that 
this goal could not be reached quickly and might not be reached 
within his lifetime.
    Well, the new START Treaty has entered into force. Russia's 
violation of the INF Treaty and refusal to address non-
strategic nuclear weapons, together with the growth of nuclear 
arsenals in North Korea, Pakistan, and perhaps elsewhere, leave 
this goal more distant than it was seven years ago.
    Similarly, we are not closer to a Fissile Material Cut-Off 
Treaty or a Comprehensive Test Ban Treaty, other 
nonproliferation goals from the Prague speech. The President 
sought to strengthen the nonproliferation treaty in three ways, 
none of which have been fully implemented.
    Finally at Prague, the President introduced ``a new 
international effort to secure all vulnerable nuclear material 
around the world within four years.'' Unfortunately, this goal, 
too, has not yet been achieved.
    Moving to nonproliferation, North Korea remains, as has 
been noted already, a dangerous and intractable threat, with a 
growing arsenal, and it continues to issue threats.
    Finally on nonproliferation, the administration may have an 
opportunity, as has been noted by many members of the committee 
and some of the earlier witnesses, to foster a decision in 
Northeast Asia not to pursue civil reprocessing of spent 
nuclear fuel which results in separated plutonium. I think 
actually this is an enormous diplomatic opportunity, and if it 
were achieved would advance U.S. and international security.
    On nuclear security, the best way to prevent nuclear 
terrorism, recently security for nuclear materials has improved 
modestly, while the capabilities of some terrorist groups has 
grown dramatically, particularly, for example, the Islamic 
State, suggesting that in a net calculation, the risk of 
nuclear terrorism may be higher now than it was two years ago.
    Areas where there has been significant but still incomplete 
progress on nuclear security include stringent nuclear security 
principles; ubiquitous, effective, and sustainable nuclear 
security; consolidating nuclear weapons and material; building 
international confidence; strengthened security culture and 
combatting complacency; and continuing an effective dialogue 
after the Summit's end.
    U.S. spending on nuclear security declined from about $800 
million in Fiscal Year 2012 to just over $500 million in Fiscal 
Year 2016, a 38 percent cut, with a further 24 percent 
reduction due to come about in Fiscal Year 2017. Russia's 
absence from the Summit is a problem. It holds the world's 
largest arsenal of nuclear weapons and the largest stockpile of 
nuclear material, and it faces perhaps growing problems with 
corruption, organized crime, and Islamic extremism. We will 
need to reinvigorate cooperation with Russia if we are to 
address successfully the nuclear security issue.
    Finally, nuclear smuggling remains an issue. The first line 
of defense is security, but seizures of fissile material 
outside of authorized control in 2003, 2006, 2010, and 2011 are 
empirical evidence of nuclear security failures. Intelligence, 
law enforcement, border security, and sensors are all necessary 
to combat this problem.
    We have done much over the past 25 years, Republicans and 
Democrats, the Congress and the executive branch, but key gaps 
remain. Progress has slowed; budgets are declining. President 
Obama urged his colleagues at the last Nuclear Security Summit 
to sprint toward the finish line. That is exactly the kind of 
sense of urgency that we need.
    [Mr. Tobey's prepared statement follows:]


Prepared Statement of Hon. William Tobey, Senior Fellow, Belfer Center 
   for Science and International Affairs, Harvard Kennedy School of 
                               Government

    Chairman Corker, Ranking Member Cardin, members of the committee, 
it is a distinct pleasure again to be with the Committee to discuss 
issues related to preventing nuclear terrorism and proliferation.
    My invitation contained a list of seven important and difficult 
questions. I will divide my answers to them into two parts--first, 
preventing nuclear proliferation, and second, advancing nuclear 
security (the most effective way to prevent nuclear terrorism).
    At the outset, however, I would like to acknowledge an important 
aspect of U.S. policy to prevent nuclear proliferation and terrorism; 
it has enjoyed a bipartisan consensus across decades in both the 
legislative and executive branches. Senators Sam Nunn and Richard Lugar 
authored the legislation creating nuclear security cooperation with the 
former Soviet Union, and President George H. W. Bush signed it. 
President Clinton established a broad range of programs that were 
extremely effective. President George W. Bush expanded their scope and 
pace, and doubled their budgets. President Obama established the 
Nuclear Security Summits, which have cut red tape and created a sense 
of responsibility among leaders. And Congress actively participated in 
and funded all of these programs and projects.
Nonproliferation
    President Obama enunciated his nonproliferation goals on April 5, 
2009 in Prague. His agenda was broad and ambitious, and he related his 
disarmament goals to his nonproliferation objectives. His foremost 
objective was ``to seek the peace and security of a world without 
nuclear weapons,'' while acknowledging that ``this goal will not be 
reached quickly--perhaps not in my lifetime.'' Although the President 
signed and the Senate consented to ratification of the New START 
Treaty, Russia's violation of the INF Treaty and refusal to negotiate 
reductions of non-strategic nuclear weapons, together with the growth 
of nuclear weapons arsenals in North Korea, Pakistan, and perhaps 
elsewhere, leave this goal more distant today than it was seven years 
ago, and with no visible path to achieving it.
    The President also sought to conclude or to ratify Fissile Material 
Cut-off and Comprehensive Test Ban Treaties. Here too, prospects for 
achieving the administration's goals are more distant than they were 
seven years ago.
    The President sought to strengthen the Nonproliferation Treaty by 
three means. First, he called for more resources and authorities for 
international inspectors. The International Atomic Energy Agency's 
(IAEA) total budget for nuclear verification rose from =136 million in 
2009 to =143 million in 2016, an increase of less than one percent per 
year. Since the Prague speech, Additional Protocols between the IAEA 
and 36 countries have entered into force, bringing the total to 126 in 
force. The Iran nuclear deal both broadened and circumscribed 
established IAEA inspection authorities.
    Second, the President sought to strengthen the Nonproliferation 
Treaty by demanding, ``real and immediate consequences for countries 
caught breaking the rules.'' He also asserted that, ``Rules must be 
binding. Violations must be punished. Words must mean something.'' Here 
the record is mixed, but does not meet the standard set by the 
President. So far anyway, China has shielded North Korea from the 
strongest effects of international sanctions with infusions of trade, 
aid, and investment, and consequently Pyongyang continues prohibited 
missile and nuclear tests. The Iran nuclear deal has curtailed Iran's 
programs, but it did nothing to compel Tehran to provide a complete and 
correct declaration of the military dimensions of its program, as 
required by its Safeguards obligations, and it has done nothing to halt 
prohibited missile tests.
    Third, the President sought to strengthen the Nonproliferation 
Treaty by creating a new framework for international cooperation, 
including a fuel bank. The IAEA Board of Governors approved 
establishing a fuel bank in 2010 and in August 2015 the Agency signed 
an agreement with Kazakhstan to host it. A new framework for civil 
nuclear cooperation remains more elusive, with new states calling for a 
uranium enrichment capability, and the prospect of three civil 
reprocessing programs capable of separating plutonium in Northeast 
Asia. Thus, a new framework to limit the spread of enrichment and 
reprocessing technologies--the keys to making nuclear weapons--remains 
a challenge.
    Finally, President Obama introduced ``a new international effort to 
secure all vulnerable nuclear material around the world within four 
years'' to the Prague agenda. He also called for new standards and 
expanded cooperation with Russia. I will deal with the nuclear security 
issue in the second half of my testimony. Here, I would note that the 
goal of securing all vulnerable nuclear material around the world has 
not yet been achieved, and neither have stringent standards for nuclear 
security, nor expanded cooperation with Russia.
    North Korea remains the most dangerous and intractable 
proliferation threat facing the United States. To date, bribes have not 
sufficed to buy an end to North Korea's nuclear weapons program, and 
China's trade, aid, and investment have more than offset the effects of 
sanctions. The Institute for Science and International Security 
estimates the North Korean nuclear arsenal to have been 10-16 weapons 
at the end of 2014, and that both plutonium and highly enriched uranium 
stocks will continue to rise. North Korea recently conducted a fourth 
nuclear test and continues to launch ballistic missile tests. Recent 
statements from Pyongyang are even more troubling--albeit ambiguous--as 
they seem to foreshadow some sort of test involving a nuclear capable 
re-entry vehicle.
    Since 2006, the United Nations Security Council has imposed five 
sanctions resolutions on the DPRK of increasing stringency. The latest, 
Resolution 2270, imposes new financial sanctions, limits on small arms 
transfers, and inspection procedures for North Korean shipping. 
Moreover, North Korea has recently attracted unprecedented criticism. 
Responding to Pyongyang's threats to use ``preventive nuclear 
strikes,'' the Russian Foreign Ministry said on March 8, 2016, 
``Pyongyang should be aware of the fact that in this way the DPRK will 
become fully opposed to the international community and will create 
international legal grounds for using military force against itself in 
accordance with the right of a state to self-defense enshrined in the 
United Nations Charter.'' China too has been more critical than in the 
past.
    The real test of whether or not international cooperation can halt 
and reverse the North Korean nuclear program, will be the level of 
cooperation and effort that China will extend. Beijing effectively 
holds a veto over sanctions policy.
    Beijing's primary interests are no war and no instability, which 
could lead to political upheavals and refugee flows. Yet, in many ways 
North Korean actions are directly antithetical to stated Chinese 
interests. First, Pyongyang is the primary source of instability in 
Northeast Asia, launching military attacks, conducting nuclear and 
missile tests, regularly threatening its neighbors, and managing its 
economy so poorly that millions of people have died of famine. Second, 
DPRK belligerence draws the United States closer to its allies in Japan 
and South Korea. Third, the North's nuclear threats increase the 
salience of U.S. extended deterrence. Fourth, Pyongyang's nuclear and 
missile tests spur greater American and allied interest in missile 
defense. Fifth and finally, North Korea's threats make the continued 
presence of U.S. forces on the Korean Peninsula more, rather than less, 
likely.
    From a positive perspective, peaceful reunification, were it to 
occur, would advance the interests of all peoples in Northeast Asia. A 
source of instability would be removed. The black hole that is North 
Korea's economy could open up to reform, trade, and growth. South 
Korea's security imperatives would diminish, perhaps offering more 
options regarding the continued need for U.S. ground forces. While 
there is no immediate prospect for peaceful reunification of Korea, 
convincing Beijing that it would be in China's long-term interest could 
go a long way toward creating the conditions necessary for it to occur. 
North Korea is not viable without Chinese support.
    Finally, on nonproliferation, I was asked, ``What opportunities has 
the administration missed . . . '' Earlier, I alluded to one such 
issue--the growth of reprocessing programs in Northeast Asia. The long-
delayed spent fuel reprocessing plant at Rokkasho in Japan is inching 
toward opening, perhaps in 2018. When it is complete, it will be 
capable of producing 8 tonnes of separated plutonium per year, adding 
to existing stocks of about 47 tonnes, held both in Japan and Europe. 
Separating plutonium is of concern for two reasons.
    First, it creates weapons usable material, which might be subject 
to theft. Nearly all of the fissile material that has been seized 
outside of authorized control has been in bulk form, as created in 
reprocessing plants. If even one percent of the annual plutonium 
production were to be stolen, it would be enough for ten bombs per 
year. Second, it raises concerns of proliferation risk. While Japan has 
an impeccable nonproliferation record, China has raised the issue. Last 
June, China's Foreign Ministry spokesman said, ``Japan's long-term 
storage of sensitive nuclear materials has outweighed Japan's needs and 
aroused the serious concern of the international community. . . .  We 
expect Japan to respond to the concerns of the international community, 
take practical action at an early date, and address the imbalance 
between its demand and supply of sensitive nuclear materials.''
    Despite repeated assertions to the contrary, reprocessing is 
economically indefensible. Japan is coming to realize this, facing its 
28th year of construction, plant costs approaching $25 billion, and 23 
delays to the start of operations totaling about 20 years. Despite this 
sorry experience, China recently announced plans for a reprocessing 
plant slated for completion (assuming it does not face similar 
problems) by 2030. Furthermore, South Korea has pressed to keep alive 
an option to reprocess spent fuel through a technology called pyro-
processing. If Japan moves ahead, it will be more difficult to convince 
Seoul not to do the same. If South Korea begins reprocessing, it is 
difficult to imagine negotiating an agreement prohibiting the DPRK from 
doing so.
    A concerted diplomatic effort by the administration, articulating 
security and nonproliferation concerns to Japan because of the 
precedent Rokkasho might establish, explaining to China the costs the 
United States has faced at the MOX Fuel Fabrication Facility, which 
would start with separated plutonium, and seeking concerted decisions 
in Northeast Asia to forego reprocessing, could prevent and reverse the 
spread of technology for making fissile material. All three countries 
would be safer and more prosperous for deciding not to reprocess spent 
fuel, at least for the foreseeable future.
Nuclear Security
    In discussing this issue, I will draw upon a forthcoming report my 
Belfer Center colleagues Matthew Bunn, Martin Malin, Nickolas Roth, and 
I have prepared in advance of the 2016 Nuclear Security Summit, 
although the opinions expressed in this testimony are solely my own.
    The danger of nuclear terrorism remains real. Measures to secure 
nuclear weapons, and the material needed to make them, are the most 
effective means to reduce that danger. The job of securing nuclear 
materials is never ``done;'' it requires a commitment to continuous 
improvement. Since the 2014 Nuclear Security Summit, security for 
nuclear materials has improved modestly, but the capabilities of some 
terrorist groups, particularly the Islamic State, have grown 
dramatically, suggesting that in a net calculation, the risk of nuclear 
terrorism is higher than it was two years ago.
    Nuclear security around the world has improved dramatically over 
the past 25 years. Gaping holes in fences no longer exist, sensors are 
widely in place to detect theft by insiders, procedures are tighter, 
and more than half the countries that once had nuclear material are now 
free of it. Nonetheless, significant weaknesses persist, and much 
remains to be done to protect materials effectively and sustainably in 
the face of evolving threats. Unfortunately, progress is slowing and 
funding is declining.
    Areas where there has been significant but incomplete progress, 
demanding further attention and actions include:


   Committing to stringent nuclear security principles;

   Implementing effective and sustainable nuclear security 
        ubiquitously;

   Consolidating nuclear weapons and weapons-usable materials;

   Strengthening security culture and combating complacency;

   Building confidence in effective nuclear security; and,

   Continuing an effective nuclear security dialogue after the summits 
        end.


    Unfortunately, U.S. spending on nuclear security cooperation has 
declined from over $800 million in fiscal year 2012 to just over $500 
million in 2016, a 38 percent decline, and the administration proposes 
a further 24 percent cut for 2017, to less than $400 million. 
``International Nuclear Security,'' a flagship program, would be cut by 
two-thirds, to a level not seen since the 1990s. Some of these 
reductions result from completed work or ending cooperation with 
Russia, but they have also led to a slowing or postponing of some 
important nuclear security work. administration estimates call for 
spending substantially less on nuclear security every year for the next 
five years than the government was projecting only one year ago. These 
spending reductions, if approved by Congress, would further slow 
nuclear security progress.
    Russia's absence from the Nuclear Security Summit is troubling for 
two reasons. First, last January, Russia went from simply choosing not 
to attend the meeting, to actively attacking it as illegitimate. This 
will make it harder to muster consensus on difficult issues. Second, 
Russia has the world's largest stocks of nuclear weapons and weapons-
usable material. While physical security improvements are substantial, 
corruption, organized crime, and Islamic extremism are endemic.
    For example, a recent report by the Carnegie Moscow Center found 
that radical organizations including the Islamic State have established 
a presence in Russia's Chelyabinsk Province, home to some of Russia's 
most sensitive nuclear establishments. While there is no public 
evidence that they have targeted nuclear facilities, the geographical 
proximity of active extremists to sites with fissile material is 
worrisome.
    Despite real and substantial differences with Moscow over issues 
ranging from Ukraine, to the INF Treaty, to Syria, U.S.-Russian 
cooperation on nuclear security remains in U.S. interests. In 
particular, cooperating to defeat the Islamic State's unconventional 
weapons capabilities would clearly be in the best interests of both 
countries. While the old days of a donor/recipient relationship are 
over, cooperation among scientists to improve the technology and 
techniques for nuclear security could also advance both countries' 
interests. Moreover, the Global Initiative to Combat Nuclear Terrorism, 
which is co-chaired by the Washington and Moscow, can become a vehicle 
to both overcome the gap in U.S.-Russian nuclear security cooperation 
and pick up the slack created by the end of the Nuclear Security 
Summits.
    With respect to progress on securing nuclear material in Pakistan, 
I have no knowledge of that issue since leaving government in 2009.
    The first and best way to defeat nuclear smuggling is effective 
security at facilities with fissile material. Empirically, however, 
there have been more than twenty incidents in which fissile material 
has been seized outside of authorized control over the past two decades 
or so. While most of these examples occurred before security upgrades 
were widespread, incidents in 2003, 2006, 2010, and 2011 demonstrate an 
ongoing issue. Although none of them involved sufficient material to 
fabricate a weapon, material seizures are important for three reasons. 
First, they are absolute evidence of a security failure. Second, until 
there is certain knowledge of where the material came from, how it was 
stolen, who was involved, and where it was headed, we cannot be certain 
that the security hole has been plugged. Third, in many of the 
instances, the recovered material was advertised as a sample of a 
larger quantity that remains at large. Unfortunately, there is no 
publicly available evidence that these incidents have been successfully 
investigated and resolved.
    Measures to detect illicit shipments of nuclear material, the 
Second Line of Defense and Megaports programs have suffered funding 
cuts and controversy in recent years. To be sure, detection systems are 
not perfect and must be supplemented by effective law enforcement and 
intelligence work. Moreover, the Eurasian Customs Union of former 
Soviet states has disrupted the originally envisioned architecture, 
which started with a ring around Russia. These problems, together with 
what may be a deteriorating security situation in Russia, require 
special mitigating steps, including heightened intelligence and law 
enforcement efforts, more thorough customs and border control work, and 
establishment of new inspection rings.
    In working to defeat nuclear smuggling, it will also be important 
to address the North Korean threat. Pyongyang has a demonstrated 
willingness to sell the means to produce fissile material, missiles, 
and other destabilizing weapons. The growth in the DPRK's stocks of 
fissile material raises the possibility that some of it could go up for 
sale. Pyongyang should realize--and the Obama administration should 
make clear--that any transfer of fissile material that resulted in 
detonation of a nuclear weapon, would implicate North Korea in the full 
consequences of the action. Similarly, any transfer to a non-state 
actor, would result in a severe response from the United States. 
Nonetheless, this danger will require additional vigilance.
    Mr. Chairman, in sum, while much has been done over the past 
twenty-five years to prevent nuclear terrorism and proliferation, much 
remains to be done. Key gaps remain unfilled. Progress has slowed. 
Budgets are declining. President Obama urged his colleagues at the 2014 
Nuclear Security Summit to sprint to the finish. That is exactly the 
urgency that is needed later this month and in the years beyond.


    The Chairman.  Thank you very much.
    Secretary Tauscher?

STATEMENT OF HON. ELLEN O'KANE TAUSCHER, FORMER UNDERSECRETARY 
     OF STATE FOR ARMS CONTROL AND INTERNATIONAL SECURITY, 
                         WASHINGTON, DC

    Ms. Tauscher. Senator Corker and Senator Cardin, thank you 
so much for including me today. It has been almost four years 
since I left the government. I just want to report on St. 
Patrick's Day that I am not only 100 percent Irish American, 
but I am so happy in the private sector. It is an honor to be 
back here with colleagues to talk about an issue that has taken 
up a very long part of my private and personal life both in the 
government and now that I am out in the private sector.
    I represented the only congressional district with two 
national labs in it. In the Congress, I sat on the Armed 
Services Committee for seven terms, and while the Democrats 
were in the majority I chaired the Strategic Forces 
Subcommittee, which is about $55 billion of responsibility, on 
nuclear weapons, space satellites, and missile defense.
    When I became Undersecretary in the Obama administration, 
we had to go forward and get the new START Treaty ratified and 
negotiated, and I appreciated this committee's support. I also 
thank this committee for actually confirming me to my position.
    I have submitted remarks for this hearing, but I want to 
depart from them because I found it very interesting in your 
summary, Mr. Chairman, because I think you and my 20-year 
friend, Mr. Cardin, are absolutely right. Your point is very 
well taken. The world is increasingly complicated and more 
dangerous. We have people more likely to use nuclear weapons 
today than we ever have had, I think, except perhaps at times 
during the Cold War.
    And Senator Cardin is also right. We have done a lot to try 
to prevent them from having the material to do that, but every 
time we seem to make advances, people redouble their efforts.
    So I just want to take a couple of moments. I sat on the 
board of the Nuclear Threat Institute, and I think that board 
and that group created by Sam Nunn and Ted Turner and others is 
a terrific outside group. They have a monitoring system, they 
have reports that they give, they have a website that is 
visited by tens of thousands of people. So from somebody that 
is now on the outside, I just want to take a few minutes and 
kind of give you a couple of recommendations, because while you 
are both right, what concerns me more than anything is that the 
debate is not one that the American people or, frankly, the 
world is really engaged in.
    To a certain extent they understand that we still have 
nuclear weapons. Most people would assume that the United 
States had ratified the Comprehensive Test Ban Treaty. We have 
not. I would support the Senate looking at it. I think the 
people that voted against it in 1999 were probably right. At 
the time, we had a brand new regime called Stockpile 
Stewardship. It was not yet proven. It now has been proven. And 
at the time, the era of cheating was very, very front in the 
minds of people, could we prevent cheating, could we detect 
cheating, and I think we have answered that question too.
    So the Comprehensive Test Ban Treaty, I think, is 
important.
    The one most important thing that I think we really need 
your leadership in--and I applaud and commend the 
bipartisanship of this committee and your leadership, both of 
you two senators--and that is that we need more predictable, 
more transparent funding for the complex itself. I spent a lot 
of time working on it. Just as far as disclosure, I did sit on 
the boards of Livermore and Los Alamos until recently, about 
three years.
    But we need to be able to maintain unambiguously a quality 
deterrent. That is the thing that won the Cold War. That is 
what kept us safe until now. So the idea that we have an 
unambiguous quality deterrent that our allies and our 
adversaries take seriously is the most important thing. It 
means we need smart people at the labs to deal with the future 
problems, and we need to be able to be sure that we can, 
without testing, maintain a safe and reliable deterrent.
    So I am anxious to talk about these issues with you. I very 
much applaud the hard work and the leadership that you have. I 
commend to you my testimony, and you can take a look at it. 
Thank you.
    [Ms. Tauscher's prepared statement follows:]


Prepared Statement of Hon. Ellen Tauscher, Member of the Nuclear Threat 
Initiative Board of Directors, former Under Secretary for Arms Control 
   and International Security, and Former Member of Congress (D, CA)

                 the future of nuclear nonproliferation
    Chairman Corker, Senator Cardin, thank you so much for holding such 
an important hearing and thank you for all of your work to keep arms 
control and nuclear nonproliferation at the forefront of our foreign 
policy and advance U.S. national security. I realize we might not 
always agree on the approach and, there obviously are disagreements, 
but I appreciate the debate and discussion.
    The global implications and potentially catastrophic consequences 
of the use of nuclear weapons against the United States and its allies 
is why the Obama administration made nuclear nonproliferation one of 
the key U.S. policy objectives of its 2010 Nuclear Posture Review. The 
recognition of the dangers posed by a world of ever increasing nuclear 
proliferation is what motivated the President to announce his goal of 
moving toward a world free of nuclear weapons.
    He tempered this idealistic goal--one shared by President Ronald 
Reagan--with the need to pursue it in a pragmatic and responsible way. 
He envisioned a way forward that saw the United States working with 
other countries to stop proliferation while also maintaining a safe, 
secure, and effective nuclear deterrent for the United States and its 
allies so long as nuclear weapons exist. This balanced approach to the 
nuclear issue is essential to the national security of the United 
States.
    That's why I care so deeply about this issue and have made it my 
life's work. That's why, when I was part of the Obama administration, 
we worked to create more certainty in an uncertain world. We sought to 
reduce the size of our nuclear arsenal, while making it safer, more 
secure, and more effective.
    In 2010, the Senate approved the New START Treaty for ratification. 
This Treaty marked another step in our long-term effort to shift the 
United States and Russia from a world of mutually assured destruction 
to one of mutually assured stability.
    While the United States and Russia made some progress in its 
relationship early in the administration's first term, Russia's 
provocative behavior in the Crimea, Ukraine, and elsewhere, coupled 
with its violations of existing arms control treaties, has made 
discussion of further reductions difficult.
    It's unfortunate that Russia will not be attending the 2016 Nuclear 
Security Summit. Let me be frank: Russia's past participation was 
anemic. They didn't bring ``house gifts,'' joint ``gift baskets,'' and 
their negotiating posture has been to weaken the consensus texts. But 
Russia's absence does not necessarily signal anything about its 
commitment to securing its own nuclear material. Despite Russia's lack 
of action at the Summits, Russia has been a positive and active force 
in the Global Initiative, as if to prove that they will cooperate here 
and there.
    I'm happy to offer more analysis of our relationship with Russia 
during the question-and-answer session.
    The administration also restarted a discussion about ratification 
of the Comprehensive Test Ban Treaty, which, I can say this since I am 
not in public office, that if you opposed the treaty in 1999, there 
might have been good reason. Today, you would be right to support it. I 
hope the Senate Foreign Relations Committee can continue to look into 
how the success of stockpile stewardship and the global advancements in 
verification and monitoring have changed the game on CTBT.
    In addition, we pushed for and achieved new forms of civil nuclear 
cooperation.
    While the nuclear nonproliferation deal with Iran occurred after I 
left government, I believe it's the right agreement because it allows 
us to stop Iran's quest for nuclear weapons. We'll have to see how this 
plays out. Iran has commitments to meet and some of its recent 
behavior--the missile tests--is disturbing. But Iran is constrained 
because of the deal and we have means of making sure those constraints 
remain in place.
    A centerpiece of President Obama's program to reduce the threat of 
nuclear weapons included hosting the first nuclear security summit in 
2010 in Washington. This signaled a full-scale commitment to securing 
``loose nukes'' and nuclear material. I'll get to a few challenges 
facing the Nuclear Security Summit process, but in the short term 
bringing high level attention to this issue was and still is critical.
    The summits themselves were more than a chance to talk and meet. 
The heads of government came to Washington, Korea, and the Netherlands 
with singular and joint commitments and action-plans in-hand to secure 
highly enriched uranium and plutonium.
    What's happened during the past six years and three Nuclear 
Security Summits?


   Countries have made vital upgrades to their regulatory frameworks, 
        strengthened border controls, and ratified nuclear security 
        agreements like the 2005 Amendment to the Convention on the 
        Physical Protection of Nuclear Material and the International 
        Convention for the Suppression of Acts of Nuclear Terrorism.

   Eleven countries completely eliminated their weapons-usable nuclear 
        materials and many more have reduced the quantity of those 
        materials.

   The number of countries holding nuclear material that could be 
        seized by terrorists and used to build a bomb has been cut in 
        half since 1991, from 52 to 24.


    I am pleased that the administration is focused on strengthening 
the role of the IAEA, the Global Initiative to Combat Nuclear Terrorism 
(GICNT), the Global Partnership, and INTERPOL to carry forward the 
Summit's strong focus on nuclear security. U.S. leadership is 
indispensable if the international community is to remain focused on 
the unfinished work of the Summit.
    Unfortunately, this work is never done. Old threats disappear. New 
ones emerge. Technological progress that boosts economic growth and 
productivity potentially gives potential terrorists and smugglers new 
tools to steal fissile material.
    As you know, I sit on the board of the Nuclear Threat Initiative, 
which was created 15 years ago by former Senator Sam Nunn and CNN 
founder Ted Turner to make sure that the world addressed the threat of 
nuclear weapons in smart and thoughtful ways.
    Each year, NTI produces the Nuclear Security Index. The NTI Index 
has prompted countries to take a close look at their own security and 
has led to concrete improvements. On top of that, NTI's Global Dialogue 
on Nuclear Security Priorities has brought government officials, 
experts, and nuclear industry representatives together in a unique 
environment to develop creative yet tangible proposals that have been 
taken up in the Summit process.
    This year's index has raised serious concerns--even as we approach 
the final Nuclear Security Summit--about how poorly some countries are 
doing to stop nuclear terrorism.
    First, I recognize that it was always going to be difficult to 
replicate the success of the first Nuclear Security Summit. And 
progress has slowed since the 2014 summit. Between 2012 and 2014, seven 
countries eliminated weapons-grade materials. Since 2014, only one 
country--Uzbekistan--has done so.
    In 2014, the Nuclear Security Index showed 19 improvements across 
five key security measures. This year's index showed none. What's 
dispiriting is that global stocks of weapons-usable nuclear materials 
are potentially on track to increase.
    Second, too many countries are ill-prepared to protect nuclear 
facilities against cyber-attacks that could knockout critical systems 
that provide access control or cooling for spent fuel. The Nuclear 
Security Index found that 20 countries have NO requirements to protect 
nuclear facilities from cyber attacks.
    Finally, the index found that countries with nuclear power plants 
and research reactors did not take enough security measures to prevent 
an inside-job. This was especially true in countries with ambitions to 
acquire more nuclear power.
    Finding solutions to these problems will take enormous energy and 
creativity from future presidents.
    A recent NTI white paper also noted some shortcomings of the 
Nuclear Security Summits. Commitments are voluntary and nonbinding. 
There's no accountability or external review to make sure countries are 
living up to their commitments. The communique resulting from the 
summits can often lead to a lowest common denominator outcome. But I 
want to be clear that having the summits is a much better outcome than 
not having them.
    What's most disturbing is that most global stocks of weapons-usable 
nuclear materials are categorized as ``military,'' making it outside 
the scope of the international security mechanisms that already are in 
place.
    On top of that, countries must do more to protect their weapons-
usable nuclear materials from theft and their nuclear facilities from 
acts of sabotage. They need to do a better job to protect hospitals and 
universities which have radiological sources with often little or no 
security. The Partnership for Nuclear Security, which my bureau managed 
when I was the undersecretary of State, does critical work to develop a 
culture of nuclear security and reduce the risk of insider threats at 
these facilities. Cyber-attacks present an altogether new threat. Any 
sort of breach of security would be disastrous.
    In the meantime, Congress can do its part to make sure the United 
States leads by example. I realize that the budget battles of the past 
few years have put enormous pressure on all programs
    But we have to do more than just keep the lights on. As it stands, 
the U.S. budget for nonproliferation efforts is inadequate. Last year, 
an Energy Department task force on NNSA nonproliferation programs noted 
that appropriations had declined by 25 percent between 2013 and 2016 
even though the challenges we are facing requires that more money be 
spent.
    I want to note a few shortcomings, which I think ought to be 
corrected. In the current budget submission:


   NNSA is planning to secure 4,394 buildings with high-priority 
        radioactive nuclear material by 2033 rather than achieve a 
        previous goal of securing 8,500 sites by 2044.

   Funding for all Nonproliferation and Arms Control activities also 
        would see a small decrease of $5 million.

   Spending for Defense Nuclear Nonproliferation Research and 
        Development activities, which focus on developing technologies 
        used in tracking foreign nuclear weapons programs, illicit 
        diversion of nuclear materials, and nuclear detonations, would 
        decrease about $25 million in the fiscal year 2016 
        appropriation.


    In the end, political and ideological battles should not be 
dictating funding for these programs.
    I also want to appeal to this committee to continue its strong 
bipartisan support for the State Department's nonproliferation 
programs. State's work is critical in countering nuclear, biological, 
and chemical weapons threats.
    On another note, I believe people are policy. Not having the right 
people in the right jobs isn't good for business or running a 
government. I appreciate that the committee, in January, voted in favor 
of Laura Holgate's nomination to become our ambassador to the U.N. 
Missions in Vienna. I hope she can get a vote on the Senate floor soon. 
We need strong voices and competent people pressing for effective 
implementation of the Iran deal.
    I appreciate the committee's invitation to testify and I'm honored 
to be a part of this panel. My hope is that the 2016 summit does not 
mark the end of an era, but ushers in a new phase of strengthened and 
lasting international cooperation. And, I hope that future 
administrations and Congresses continue to focus high level attention 
on this issue.
    Thank you and I'm happy to answer any questions as best as I can.


    The Chairman.  All right. Thank you.
    I appreciate your desire to move off of your written 
testimony and address what just happened, and just for what it 
is worth, I could not agree more with your statement regarding 
the funding of modernization and development. I voted for New 
START. I worked with you in that regard, and Ben and others. It 
was the right vote to make. But the thesis around that was that 
we had this huge inventory of nuclear warheads that we did not 
even know were workable, continued to be useful. We did not 
know, and the thesis was to narrow down the number of warheads 
we had and ensure that they had guided systems that were at 
least equivalent, at the time, to my Blackberry. Now we are 
moving on to i-phones, but we had systems, guided systems that 
really were much like what we had in black-and-white 
televisions at one point.
    So for us to invest heavily and to have the capabilities, 
by the way, down the road should we ever need them to develop 
additional materials was very important, and I am concerned 
that we are not doing those things that we need to do to ensure 
that we have the best and brightest in the world at these 
facilities that you just referred to, and attracting people, 
and stressing the importance of this program. So I appreciate 
you highlighting that. We discussed that. We just had a hearing 
the other day, the Armed Services Committee, where we were 
invited to attend, and again I made that point there that for 
this to work for us, we have to be doing the same thing the 
Russians are doing; and, let's face it, they are taking it 
seriously, much more seriously than us at the moment. So I 
could not appreciate your comments more, and I thank you for 
that.
    At the last meeting I acknowledged that we had some 
incremental gains. I acknowledged that in my opening comment. I 
do get distressed when we have people who are lifelong public 
servants who are distinguished and know tremendous amounts 
around this subject matter. But when I continue to hear the 
glass is half full--and I am not even assessing blame--when we 
have taken huge negative steps, if you will, relative to 
nuclear proliferation, I do not even know how you can debate 
it. And yet it just seems like we are putting a rosy outlook on 
where we are, and I think we ought to--as a matter of fact, 
Secretary, I think if we would raise greater alarms about where 
we are, we might have the kind of funding for these programs.
    But we just continue to ease along in a way that acts as 
if, oh no, we are solving all these problems, the world is 
wonderful, when the world has not decided to be wonderful. I 
will say I think some of our steps--I am now getting way off 
topic, just like you did. But when you take out a leader like 
Gaddafi, who had cooperated with us on weapons of mass 
destruction, I think it sends a signal to the world that if you 
have weapons of mass destruction, you should keep them and 
develop them because otherwise you get taken out.
    So I think our policies have not been thoughtful relative 
to how we deal with these nuclear and other weapons of mass 
destruction.
    I have been very disappointed--we are more having a 
conversation than a Q&A. But the 123 agreements that we have 
been entering into may have been sending the wrong signals, and 
I wonder if you might disagree with me or agree with me. But it 
just seems we have been reluctant to use that negotiation as a 
point to try to diminish the ability for plutonium reprocessing 
to be a part of proliferation, as we are now discussing, and I 
would love any comments you might have.
    Ms. Tauscher. Well, I think they call this violent 
agreement, Mr. Chairman, but I think we are in violent 
agreement on many things. When I was Undersecretary, both the 
current Undersecretary and Tom, the Assistant Secretary, worked 
with me. They are terrific people, and they are people that 
are, unlike me, coming from the Congress, are professionals.
    I will tell you--and you have seen this in your life in the 
private sector and while you have been senator--while you are 
in it and you are tactically moving things forward, it is 
difficult to lift your head up and kind of play the strategic 
role that you have to do, and they are here to defend what the 
administration is doing in a very, very complicated time.
    On the 123 agreements, I will say that the problem with the 
123 agreements in my perception are two things. I voted for the 
UAE agreement when I was in the House. It was called, if you 
recall--I think, Senator Cardin, you were in the House with 
me--it was called the gold standard. The problem with having a 
gold standard is it needs to have two things. It needs to be 
replicable, and it actually needs to be the best.
    The truth was it is not replicable, in my mind. The UAE 
changed that law on their own. They did not decide because of 
our influence. They wanted to have the agreement with us. They 
knew that was what we were going to require. They changed the 
law on their own. The 123 agreements are for us to be able to 
sell the United States technology into countries. Keep in mind 
that we have allies like France, and then we have the Russians 
who are perfectly willing to sell this technology to anybody, 
and no 123 agreement required.
    So we have become, I would say, dangerously uncompetitive 
on the nuclear sphere when we cannot compete with countries 
like the French and the Russians, who do not require 123 
agreements, and where we have, I think for the right reasons, 
very strict controlling laws that create the atmosphere for us 
to be able to do that.
    So I am not surprised with the Republic of Korea, for 
example, with North Korea sitting on its northern border, that 
their insistence is going to be on reprocessing. They are going 
to want to know that they got what they got.
    One of the reasons we pushed very hard to have nuclear fuel 
banks was to give people an alternative to their own 
reprocessing, to kind of internationalize, under the IAEA, a 
rubric of reprocessing and banking so that every little country 
was not doing their own and we could not find out what was 
going on.
    So once again, I think you are absolutely right, these are 
enormously complicated circumstances. These 123 agreements are 
tough to do. We do not have the advantage of having our 
government sell them that help countries do things that we are 
not necessarily for, and I think that it is a tough environment 
for us.
    The Chairman.  Mr. Tobey?
    Mr. Tobey. Thank you, Mr. Chairman. This is an issue I have 
a great deal of interest in, and I agree completely with your 
concern, Secretary Tauscher's concern about the importance of 
trying to stop the spread of reprocessing.
    My own view is that 123 agreements can be a useful tool, 
but they are something of a hammer. They are sort of a blunt-
force object. That does not mean they should not be used. 
Hammers are useful, but they are not the only tool.
    I think the most effective thing the U.S. Government could 
do today to address this issue would be first to go to Beijing 
and brief them comprehensively on the Mox program, which I used 
to run at the Department of Energy, and the cost overruns. That 
fuel fabrication facility is being built with Areva technology 
based on Areva processes. My guess is that the Chinese, who are 
undertaking this reprocessing for civil reasons, separate from 
their weapons program, would be so appalled by the prospect of 
what they are facing, especially also given the data on 
Rokkasho, which now is over $25 billion and counting, a 25-year 
project. They have had 23 delays in that project.
    Reprocessing is economically indefensible. So to the extent 
that the Chinese are pursuing this as part of their civil 
program for fuel management or spent fuel management, they 
should not want any part of this, and we should just give them 
the facts to give them those reasons.
    Now, their concern, the Chinese are concerned about the 
Japanese stocks of separated plutonium. The Japanese have 
recently expressed concern about the Chinese getting into 
massive reprocessing; and, of course, we have heard from the 
Koreans. They would all be better off if there was--I do not 
know if there could be a joint decision, but if there were 
three separate but coordinated decisions to forego this 
technology, their security and prosperity would be advanced.
    The Chairman.  I am going to let Senator Cardin--I know he 
has an incredible day in front of him--go ahead and ask his 
questions and make any comments. Again, thank you both.
    Senator Cardin. Well, thank you, Mr. Chairman. I really do 
enjoy the conversation that is taking place. It just leads to 
the comment I am going to make and try to get your input as to 
what is the best structure for us to try to promote in order to 
deal with these nuclear issues.
    We do have tools. I mean, we do have the United Nations and 
the IAEA and the protocols and the potential for Security 
Council sanctions against those who violate those protocols. We 
do have treaties that have moved us in this direction. We had 
the 123 agreements that we had already been talking about. We 
have our bilateral relations, and we have now the National 
Security Summit.
    So we have these vehicles, but let's get out of the weeds a 
little bit and talk about what would be the most effective type 
of protocol for the United States to try to promote globally to 
get a better global consistency.
    You talked about reprocessing and knowledge on 
reprocessing. That is an excellent point. We talk about civil 
nuclear, that there is no need for the refinement, that there 
are ways you can get your nuclear materials. There are 
different ways that this can be handled so that a gold standard 
really is a gold standard.
    And I agree with you, Secretary Tauscher, the gold 
standards have not been--they are mischaracterized. So we 
really could, I think, develop international gold standards and 
not get into just the lowest common denominator that if we do 
not do this, then it will go to a French company or a Russian 
company, so that we can really develop, I would think, sensible 
global standards on the use of nuclear materials for both civil 
and military use.
    So how do we get there?
    Mr. Tobey. Well, this has obviously been an issue that we 
have been struggling with for a very long time. The U.S. has 
decided against reprocessing back to I guess the Carter 
administration, and it has been largely reaffirmed since then.
    I think it actually is hard to address that in a 
comprehensive way. I think it is something you have to do in 
either an ad hoc fashion nation by nation, or perhaps with 
groups of nations in the Northeast Asian example. Each of these 
countries is pursuing this technology for their own reasons, 
and those reasons always vary a little bit. So it is hard to 
come up with a comprehensive plan.
    Senator Cardin. And that is what we have been doing. The 
challenge is you run into countries--and I will mention again 
Pakistan that has an internal need. They have, as they perceive 
it, a security need, and then they have a regional aspect where 
they can try to become more influential in the region by the 
use of their nuclear proliferation issues.
    We limit our attentions in Pakistan to a bilateral basis. I 
am not sure we will ever get to the results we need. Maybe we 
will, I do not know, but it is a very complicated relationship, 
and it is multifaceted in that it is not just about their 
nuclear ambitions.
    Mr. Tobey. Senator, I think you are exactly right. It is 
hard to deal with them individually, but it does illustrate--
obviously, India and China are relevant to that calculus as 
well. But it also does illustrate the point I was trying to 
make that, at least in my view, Pakistan's motivations are 
almost entirely security related. They are not talking about 
their spent fuel management. They are building nuclear weapons 
for their defense. Whereas in the China, Japan, the South Korea 
case, it has a security dimension to it, but at least what they 
state is that it is driven by civil nuclear programs and spent 
fuel management. So that is why I would argue you have to 
approach the problems differently, but I would agree that you 
probably need to deal with groups of nations, small groups.
    Ms. Tauscher. I think Will is absolutely right, Senator, 
and I think you have alluded to this. This is about a regional 
approach. This is about Asia. This is about the five or six 
countries that we have talked about--India, Pakistan, China, 
Japan, and the Koreas--and there is this thread of security. 
That is why it is important to have all of them participate in 
the Nuclear Security Summit, and they have been very active. 
There is also this issue of their civil nuclear programs and, 
obviously, their weapons programs.
    But I think that it is going to take United States 
leadership to basically try to understand how to deal with the 
cross currents of this tumultuous area. In both cases we have 
countries, India and Pakistan and the two Koreas, that are at 
odds with each other constantly. The fact that they have 
nuclear weapons--the Republic of Korea does not, the North 
Koreans do--only heightens the incidence of concern.
    So I think it is really about putting together--it would be 
wonderful to have this committee put together an effort to talk 
about creating some kind of summit in that region and put 
together some simple principles where you started to work to 
get people to understand the dangers of reprocessing, why 
reprocessing, in a world where there is fuel banking, is not 
perhaps necessary in the next few years, making sure that those 
efforts on fuel banking solve their civil nuclear issues, deal 
with the security pieces over here in a security kind of way, 
not necessarily in the Nuclear Security Summit, which is really 
anti-terrorism, but specific to the kinds of efforts that many 
of these countries have of antagonism and try to find a way to 
take down the tensions. I think that would be an enormous 
effort for national security.
    Senator Cardin. I want to get to the issue of enrichment 
for one moment. I can envision that we are going to be 
approached by a Gulf state saying, look, we think we need a 
civil nuclear program, and because of our region it is 
important that we have the ability to enrich internally. What 
can the U.S. position be on a country that wants to enrich when 
it seems to many of us that the fewer places you have 
enrichment, the safer this world is going to be?
    Mr. Tobey. My own view is that we should try to discourage 
the spread of enrichment reprocessing programs wherever they 
occur. Northeast Asia is a great example of it. If China moves 
ahead, there are going to be pressures on South Korea to have 
reprocessing. They have argued openly, well, you allowed Japan 
to do it, so why can't we? If South Korea gets reprocessing, 
then it is inconceivable that we could have an agreement, as 
unlikely as it may be, that North Korea would ever give up 
their reprocessing. So that puzzle just never gets solved 
unless you begin to move in the other direction.
    Senator Cardin. We attempted at one time--the Chairman was 
active on this--to look at 123 agreements and say, look, we 
understand there is world technology. We are the best. And if 
you really are committed to the most efficient civil nuclear 
program and want the most advantageous relationship with the 
United States, then our standard is that you do not need to 
have an enrichment program, and whatever we agree to, we would 
like it to be enforceable, by the way.
    Could that work, or is it too far down the road?
    Ms. Tauscher. So as I left as Undersecretary, I actually 
wrote a memo about this because I spent 15 years on Wall Street 
as a small child, so I am kind of somebody that looks at 
negotiations as how do you make two sides whole, how do you 
have a deal that sustains itself, and how do you move forward?
    What concerns me is that our 123 agreements are used to do 
two things. One is to have this hammer and say do not enrich, 
and the other is to say Buy America. The problem is we should 
have two separate agreements. One is this nonproliferation 
agreement that is really a diplomatic agreement where we are 
putting together our best advice on how to eliminate the 
proliferation risks, especially regionally, and to try to get 
as many countries to sign up to this as possible. I think that 
is a huge diplomatic effort that we could do.
    The second is more of a DOE commercial agreement, whether 
we are going to sell technology or not. So I think that one of 
the reasons why 123 agreements have had a checkered past and 
very little success recently is because we are trying to get 
these enrichment decisions made on a commercial agreement. I 
would separate them, and I do not know if we are going to have 
success on the commercial agreements anymore, but I would 
surely spend a lot of time on these anti-enrichment pieces. If 
we put that effort together and the State Department would run 
it, I think they would do a terrific job.
    Senator Cardin. That is an excellent point, because the way 
that these agreements are being lobbied on Capitol Hill very 
much underscores the point that you are raising.
    The Chairman.  I would just follow up. I think that is a 
great point. I would say in the audience today taking notes, we 
have people from the nuclear industry. That would be my guess. 
And the fact is I could not be more supportive of our nuclear 
industry. I want them to do well and I want our country to be 
leading in technology, and yet we find ourselves sort of at 
loggerheads and countering our nuclear industry folks over 
these agreements, which really it is not about them. We want 
them to be doing the business, but it is about the fact that we 
do not want to see proliferation taking place. I think that is 
an excellent point. I do not know if that is doable, but to 
really try to separate those so we end up being aligned with 
our commercial interests here in nuclear technology and wanting 
us to be the best and the most dynamic in the world, and at the 
same time trying to negotiate on a different track. That is 
interesting and certainly something we are going to take away 
from this.
    You know, I will say, you talked about Asia and the fact 
that we are allowing enrichment to take place. Again, not to 
beat a dead horse but we have done the same with Iran where, in 
essence, we are allowing them to enrich, which was one of the 
greatest problems I had with the DOE, and allowing them to 
develop technology to enrich even faster during the lifetime of 
this agreement. So we are going to have those pressures. Other 
countries are going to be coming in, no question. I mean, there 
is no commercial need whatsoever for Iran to be doing this. It 
makes absolutely no sense, and everyone understands that. I 
mean, 3rd grade students could understand that. So it is self-
evident that this is being done for a particular purpose.
    So let me step back away from enrichment. As you look at 
the world today and you go out and you try to keep nuclear 
arsenals from proliferating, as they are at a rapid pace today, 
what is it you can really say to a country that has the know-
how and understands the threats that exist in the world and 
understand what a deterrence it is to have a nuclear weapon? 
What is it you really can use, especially with what has 
happened over the last several years, to convince a country 
that feels threatened that it is not in their best interest to 
develop a nuclear weapon today? Seriously. I mean, give me your 
argument as a diplomat in this area.
    Ms. Tauscher. I think one of the best arguments we have, 
Senator, is we have extended our deterrent to NATO allies and 
others----
    The Chairman.  And I should have said except for our NATO 
allies. Obviously, there is an argument there. But I am talking 
about people outside our umbrella, okay?
    Ms. Tauscher. Right, and what I am suggesting is probably 
heretical, and probably my phone is going to buzz off the hook 
this afternoon, but to the extent--look, we pretty much have 
identified who we think tripwires to getting their own nuclear 
arsenal, if they can, if conditions in their region or if 
something happens where they consider themselves to be in 
ultimate danger and they feel like they need a nuclear 
deterrent to kind of keep people back.
    I would suggest that we consider, because we have a huge 
arsenal, that we would find ways to deal regionally with 
deterrence, and we would say that we could expand the countries 
that we actually offer the nuclear umbrella to, to prevent 
other countries from coming in with their own arsenals. I do 
not think we can do that for the world. I do not think we can 
do that far afield from us. But there certainly are places, 
including in the Middle East, where it may make some sense 
because of the volatility of that area, where we said do not do 
it on your own; for these kinds of conditions, we will back you 
up.
    I think that the nuclear arsenal that we have is safe, 
reliable, and one that people can find confidence in. I do not 
believe that any other country should become a nuclear weapons 
state. I think we are, unfortunately, in such a turbulent time 
that that worries me more than anything else, that people feel 
this is the thing.
    As you said, there are plenty of bad guys, including the 
dictator in North Korea, that have watched what has happened 
over 20 years and have said, well, I do not feel like feeding 
my people, I do not feel like being a good leader; I want to 
preserve my regime. So if I have nuclear weapons, no matter how 
bad I am, I am safer than anybody else. That is the wrong 
indication that we should be letting people believe.
    So I think that it is going to take a lot of smart minds, 
including yours, to sit down and understand this. That is one 
of the reasons why I hope that the new administration will do a 
nuclear posture review, because I think these kinds of 
strategic questions need to be answered, not only about the use 
and the construct of the complex and investment strategy, but 
also how are we going to use the existing arsenal to prevent 
other countries, especially allies, from getting into the 
nuclear weapons business.
    The Chairman.  I think that is a good point, and I will go 
back to the point you made in your opening statement. I think 
for us to be able to stress a deterrent for others, they have 
got to see us actually taken seriously, us keeping up and 
investing in our deterrent in an appropriate way. They are not 
seeing that either. They see us here really not dealing with 
our fiscal issues in general. They understand over time the 
pressures that that places on these kinds of things, but I 
think that is a very good point.
    Mr. Tobey?
    Mr. Tobey. Mr. Chairman, I agree completely with the 
importance of extended deterrence, and therefore one of the 
many reasons why it is important to modernize our capabilities.
    I would also add a point about the nonproliferation treaty. 
It is really a bundle of bargains, and there is one bargain 
that people always talk about, but there were two others, one 
that is probably less relevant now. The first bargain was 
between the United States and the Soviet Union not to extend 
the competition of the Cold War to other states. The second one 
is the one that always gets talked about, which was between 
nuclear weapons states and non-nuclear weapons states, so that 
the nuclear weapons states agreed to engage in disarmament and 
to spread technology. But the third bargain really was among 
non-nuclear weapons states, because they were the ones who 
benefit the most.
    The states that are most threatened by an Iranian nuclear 
weapons program are not really the United States; they are the 
neighbors of Iran. So for states to understand and act in a way 
that they understand that a nuclear weapons competition will 
leave them poorer and less secure is the ultimate persuasive 
goal. Now, that does not work in every case. Obviously, in 
Southwest Asia and Northeast Asia, it is not working. But it 
has worked in lots of other places, Africa and South America.
    So the goal is, I think, to try and spread that message.
    The Chairman.  Yes, and I think the competing issue with 
the Iran situation was they were not immediately concerned 
about the nuclear capabilities, but they were immediately 
concerned about the $100 to $150 billion that was going to come 
into their hands and cause them to wreak more havoc on a 
conventional basis today.
    But, look, this testimony has been outstanding. I thank you 
both for being here. If it is agreeable to you, we are going to 
leave the record open until the close of business Friday, and 
if you all could respond, I am sure there will be numbers of 
questions from members.
    We appreciate both of you for taking the time and preparing 
for this, and certainly your contribution has been large in 
this second panel. So thank you, and we look forward to seeing 
you again.
    Ms. Tauscher. It is an honor to appear. Thank you, Senator.
    The Chairman.  Thank you. Thank you so much.
    Mr. Tobey. Thank you.
    The Chairman.  And with that, the Foreign Relations 
Committee is adjourned. Thank you.
    [Whereupon, at 12:19 p.m., the hearing was adjourned.]


              Additional Material Submitted for the Record

         Responses to Additional Questions Submitted to Under 
    Secretary of State Hon. Rose Gottemoeller by Senator Marco Rubio

    Question 1. How is Russia a committed partner on arms control and 
nuclear nonproliferation given its support of Iran's ballistic missile 
activities and violations of the INF Treaty?

    Answer. We work with Russia on security issues that affect our core 
national security priorities, including arms control and nuclear 
nonproliferation priorities such as the New START Treaty, 
implementation of the JCPOA with Iran, and the removal of chemical 
weapons from Syria.
    We routinely engage with Russia regarding possible efforts by 
Russian entities to supply sensitive equipment or technology that could 
be used to support ballistic missile programs of concern, including 
those in Iran, and work bilaterally to resolve activities of 
proliferation concern. In cases where our concerns are not addressed, 
we continue to use our unilateral sanctions authorities against Russian 
entities supporting Iran's missile development efforts, consistent with 
U.S. law.
    Still, we are very concerned about the Russian Federation's 
disregard for some of its arms control and nonproliferation obligations 
and commitments, including the INF Treaty. Russia's INF violation has 
eroded the decades-long positive contribution of this Treaty to 
European security. Our goal is for Russia to return to full, verifiable 
compliance with the Treaty. At the same time, the United States will 
ensure that Russia gains no significant military advantage if it 
persists in its current path.


    Question 2. Is Russia still committed to ensuring the security of 
its nuclear materials?

    Answer. While Russia has stated publicly that it will not attend 
the 2016 Nuclear Security Summit, our nuclear security relationship 
with Russia remains an important one. Russia attended the prior three 
Summits, and agreed to abide by the commitments to nuclear security 
contained in past Communiques and the 2010 Summit Work Plan. There is 
no indication that Russia is going back on any commitments made in the 
course of its participation in the Summit process.


    Question 3. Given that Russia ended both the Nunn-Lugar program and 
refuses to participate in this summit, why are we so sure that Russia 
remains committed to nuclear security?

    Answer. The United States and Russia both face the threat of 
nuclear terrorism, and both see it as a matter of national interest to 
prevent this threat from becoming a reality. Under the Nunn-Lugar 
program, the United States and Russia successfully implemented security 
upgrades at Russia's nuclear weapons storage sites, deactivated more 
than 7,500 nuclear warheads, and improved security for fissile 
materials. As these activities were transitioned to Russian 
implementing agencies, Russia has publicly stated its commitment to 
fund these and other nuclear security efforts.
    We remain disappointed that Russia has chosen to reduce our 
bilateral cooperation on some areas of nuclear security in recent 
years. As the countries with the largest stockpiles of weapon-usable 
nuclear materials, the United States and Russia have a special 
obligation to ensure we meet the highest standards of nuclear security. 
Russia has pledged to fully fund all necessary security measures to 
protect its nuclear materials, and the United States will continue to 
monitor developments. We will continue to pursue meaningful ways to 
encourage Russia to meet its nuclear security commitments, particularly 
in fora where they remain engaged, such as the Global Initiative to 
Combat Nuclear Terrorism (GICNT). We also continue to cooperate with 
Russia on the removal of highly enriched uranium (HEU) from countries 
around the world. For example, Russia recently aided in the removal of 
all HEU from Uzbekistan.


    Question 4. What is the status of your discussions with the 
Russians about an arms control agreement including nuclear reductions 
as President Obama outlined in his June 2013 speech in Berlin?

    Answer. There are no negotiations ongoing with the Russian 
Federation regarding further nuclear reductions below the New START 
Treaty limits. Further reductions of deployed strategic nuclear weapons 
through an arms control agreement with Russia, as President Obama 
outlined in his June 2013 speech in Berlin, require a willing partner 
and a conducive strategic environment. We have not seen evidence of 
either at this time.


    Question 5. Do you and the administration continue to stand by the 
written pledge you made to me on December 16, 2014 that any further 
reductions to the U.S. nuclear stockpile should only occur as part of 
an arms control agreement subject to the advice and consent of the 
Senate?

    Answer. I affirm the contents of the letter remain accurate.


    Question 6. Given your new planned appointment as deputy secretary 
general of NATO, what is your view on providing lethal military 
assistance to Ukraine to defend its territory against Russia?

    Answer. Ukraine has the right to defend itself, which is why the 
United States has provided significant non-lethal security assistance 
to Ukraine to help its forces defend their country's sovereignty. I 
have been pleased to share with Ukrainian counterparts the details of 
our new $335 million security assistance package to support Ukraine. 
However, the United States continues to believe that there is no 
military resolution to the conflict caused by Russian aggression and 
remains committed to supporting full implementation of the Minsk 
agreements.
    NATO has condemned Russia's illegal and illegitimate attempted 
annexation of Crimea and Russia's ongoing efforts to destabilize 
portions of eastern Ukraine. At the 2014 Wales Summit, Allies 
``launched additional efforts to support the reform and transformation 
of the security and defense sectors and promote greater 
interoperability between Ukraine's and NATO forces,'' and to enhance 
Ukraine's ability to provide for its own security. NATO also endorsed 
sanctions placed by the EU, G7 and others on Russia for its activities 
in Ukraine. Since Wales, NATO has established six Ukraine Trust Funds: 
Logistics and Standardization; Command, Control, Communications and 
Computers (C4); Cyber Defense; Military Career Management; Medical 
Rehabilitation; and Explosive Ordnance Disposal/Counter-IED.
    I am a strong supporter of these efforts and believe that together, 
through our bilateral efforts and the efforts of NATO, we are helping 
Ukraine to both defend itself and transform its military. Let me also 
note, that while I have been nominated for the position of Deputy 
Secretary of General of NATO, the Secretary General has not taken his 
final decision in regards to the position.


    Question 7. Do you agree with General Breedlove's assessment that 
Russia poses a ``long-term existential threat'' to the U.S. and its 
allies?

    Answer. Russia's significant strategic nuclear capabilities have 
long posed an existential threat to the United States and its allies 
and those capabilities will continue to pose that threat for the 
foreseeable future. That threat is, of course, mutual, and the Russian 
Federation knows that. We will continue to defend the United States and 
our allies against any and all threats.


    Question 8. Would you agree that Russia is no longer a partner in 
dealing with global security challenges, but is actively seeking to 
undermine the United States and our allies?

    Answer. The picture is mixed, as is often the case when dealing 
with international security challenges. We do work with Russia on 
security issues that affect our core national security priorities, such 
as those taking place in Syria, North Korea, and Iran. We were able to 
cooperate on the removal and destruction of Syria's chemical weapons 
stockpiles and the continuing implementation of the JCPOA. We also 
continue our mutual implementation of the New START Treaty. The Treaty 
and its verification mechanisms continue to provide limits on, and 
access to, Russian strategic nuclear forces and contribute to 
predictability, transparency and stability.
    Such engagements, however, do not alter our position on other 
issues where we condemn Russia's conduct, notably its involvement in 
Ukraine, where Russia continues its direct support of combined Russian-
separatist forces in eastern Ukraine and its ongoing attempted 
annexation of Crimea. Our commitment to Ukraine's sovereignty and 
territorial integrity is steadfast.
    We have repeatedly conveyed our concerns about Russia's 
destabilizing actions in the international security realm to Russian 
officials. Our relationship with Russia, therefore, cannot be 
``business as usual'' as long as Russia does not fully implement its 
Minsk commitments, continues to occupy Crimea, and continues to 
undermine European security and international norms and principles.
    Furthermore, we will continue to insist that Russia return to 
compliance with the Intermediate-Range Nuclear Forces (INF) Treaty and 
ameliorate all other compliance concerns. We also continue to remind 
Russia that compliance concerns undermine trust and predictability, and 
continuing these actions will not enhance Russia's security, as the 
United States will take the necessary steps to protect our security, as 
well as that of our allies. As we press the Russians on compliance 
issues, we inform and update our allies on our efforts.
    Together with our allies, we are responding effectively to these 
challenges. Our solidarity with our European allies on sanctions has 
raised the costs to Russia for its aggression and forced Moscow to the 
negotiating table. Sanctions will remain in place until Russia fully 
implements its Minsk commitments. Crimea-related sanctions will remain 
in place until Russia returns this piece of Ukrainian land.
    We also continue to engage with the Russian people, and to leave 
the door open for future cooperation if the Russian government seeks to 
return as a constructive member of the community of nations, in 
compliance with its international obligations and commitments.


    Question 9. If you spoke accurately to the Denver Post, how could 
it be true--as you said to the committee on March 17, 2016--that the 
Intelligence Community did not know ``any information'' about such 
testing prior to at least December 22, 2010, when New START 
ratification occurred? Or was your statement to the committee 
incorrect?
    You have been recommended by President Obama for the role of Deputy 
Secretary General of NATO, at a time when the Alliance faces tremendous 
challenges from the resurgence of grave Russian threats in Europe--
including in connection with Russia's invasion of Ukraine, as well as 
its provocative nuclear force posture, continued occupation of Georgia, 
INF Treaty violations, and ongoing compliance problems under the Open 
Skies Treaty. This makes the issue of your handling of Russia issues, 
including the problem of Russian INF Treaty violations, particularly 
important.
    In this connection, I note that the unclassified version of the 
State Department's 2010 report on Adherence to and Compliance with Arms 
Control, Nonproliferation, and Disarmament Agreements and Commitments--
the production of which you oversaw, and which came out before New 
START ratification--states about the INF Treaty only that no compliance 
issues had been ``raised'' since the last meeting of the Special 
Verification Commission in October 2003. The 2011 version of the report 
says the same thing. This seemingly reassuring statement would be 
consistent, however, with the United States actually having concerns 
about Russian compliance with the INF Treaty but not raising them. 
Indeed, you told the Denver Post that you first ``called them'' (the 
Russians) on this issue only in May 2013.

    Answer. During the March 17, 2016, hearing before this committee, I 
explained that prior to the ratification in December 2010 of the New 
START Treaty, ``the Intelligence Community was not aware of any Russian 
activity inconsistent with the INF Treaty.'' I, and others in the 
administration, have made this fact clear in briefings and hearings. We 
have also been clear that, upon becoming aware of activity inconsistent 
with the INF Treaty, the administration notified Congress, including 
this committee.
    Information regarding the INF non-compliant system's testing 
history, the intelligence reporting associated with this program, our 
compliance determinations, and information about our work with allies 
have been made available to Congress many times through appropriate 
channels. This administration believes that it is extremely important 
that this timeline is properly described and understood. Continued 
misunderstandings and misstatements about the timeline could serve to 
confuse the discussion of this issue with our allies and inadvertently 
obscure the nature of the Russian violation.
    We are happy to once again provide clarifying information 
associated with the timeline in the appropriate setting.


    Question 10. You noted during the testimony that the U.S. has begun 
discussions with Russia on the INF Treaty violation, what is the nature 
of those discussions?

    Answer. This administration has been engaged in steady diplomacy 
over the last several years with the goal of bringing the Russian 
Federation back into full, verifiable compliance with the Treaty. This 
has been a very difficult discussion, as evidenced by the fact that 
Russia continues to deny the violation and has not yet made the 
political decision to return to compliance. We have made clear to 
Russia that should Moscow remain in violation of its obligations the 
United States will protect our security and the security of our Allies, 
and that Russian security will not be enhanced by continuing the 
violation. Throughout this time, we have made every effort to keep our 
Allies in Europe and Asia apprised of Russia's violation and our 
diplomatic efforts to resolve it.
    For specifics with regard to U.S. engagement with Russia and our 
Allies and partners on Moscow's INF Treaty violation, I would refer you 
to the relevant portions of the Report on Noncompliance by the Russian 
Federation with its Obligations under the INF Treaty, required by 
Congress in response to Subsection 10(c) of the Ukraine Freedom Support 
Act of 2014 (P.L. 113-272), where this information is provided in 
detail. This report is provided in unclassified and classified versions 
every 90 days to Congress.


    Question 11. What three violations did Russia accuse the U.S. of 
committing?

    Answer. Russia has accused the United States of violating the INF 
Treaty in three areas:


  <diamond> ballistic target missiles used to test missile defense 
        systems;

  <diamond> armed, unmanned aerial vehicles or UAVs; and,

  <diamond> the Aegis Ashore missile defense system.


    These accusations are baseless. The United States has always been 
and remains in full compliance with all of its INF Treaty obligations. 
On multiple occasions, we have explained to the Russian Federation how 
we are compliant in all three cases; however, it continues to make 
accusations in conflict with the facts.
    Russia raised the first two of these allegations over 12 years ago 
in the INF Treaty's Special Verification Commission, or SVC. The United 
States fully and substantively addressed Russian concerns multiple 
times from 1999 to 2003. The Russian Federation stopped raising those 
two issues in the wake of our explanations of how our activities in 
those areas are Treaty compliant. Only after we announced our 
determination of Russia's violation of the INF Treaty in July 2014 did 
Russia raise those two issues again. In 2014, the Russian Federation 
for the first time alleged that the Aegis Ashore missile defense system 
was an INF Treaty violation. This allegation was made only after our 
declaration of Russia's violation, despite the fact that the United 
States had been openly pursuing deployment of Aegis Ashore for years.


    Question 12. What have our NATO and other European allies said 
about Russia's violations?

    Answer. We have consistently consulted with our Allies as we pursue 
a resolution to the Russian Federation's violation of the INF Treaty, 
including sharing available information with allies on the violating 
ground-launched cruise missile system in question. These consultations 
have been with counterparts in allied foreign affairs, defense, and 
intelligence organizations. Three broad themes have emerged in the 
responses from our Allies and partners. First, they strongly believe 
the INF Treaty contributes to security and stability in the region and 
should be preserved. Second, they would like to see a diplomatic 
resolution with Russia. Third, they would like to avoid an action-
reaction cycle, which would only destabilize the security situation. 
Regarding the specifics on our diplomatic efforts with Allies and 
partners in Europe and Asia on this issue and their responses, we are 
happy to brief you in the appropriate setting.
    For specifics with regard to U.S. engagement with Russia and our 
Allies and partners on Moscow's INF Treaty violation, I would refer you 
to the relevant portions of the Report on Noncompliance by the Russian 
Federation with its Obligations under the INF Treaty, required by 
Congress in response to Subsection 10(c) of the Ukraine Freedom Support 
Act of 2014 (P.L. 113-272), where this information is provided in 
detail. This report is provided in unclassified and classified versions 
every 90 days to Congress.


    Question 13. Have they asked the U.S. to respond in order to 
maintain defense of Europe?

    Answer. The administration's objective in this area is to ensure 
that the Russian Federation does not gain a significant military 
advantage from its INF Treaty violation. I am happy to discuss our 
engagement with our NATO Allies on this issue in the appropriate 
setting. For details on the military responses to Russia's INF Treaty 
violation and consultations concerning defending our European Allies, I 
would refer you to the Department of Defense.


    Question 14. As you noted in your testimony to the committee, the 
Open Skies Treaty (OST) makes provision for the expansion of sensor 
suites flown aboard OST aircraft to include sensors beyond simply the 
wet film photography that has been done for many years. Specifically, 
Article IV(1) of the Treaty permits sensors to include optical 
panoramic and framing cameras, video cameras with real-time display, 
infra-red line-scanning devices; and sideways-looking synthetic 
aperture radar. It does not, however, require that all these sensors be 
flown, and indeed Article IV(3) of the Treaty specifically makes the 
question of which sensors are permissible within the outer limits 
defined by Article IV(4) a matter to be decided by the Open Skies 
Consultative Commission. This Commission, however, is a body which--
under Article X(2) of the Treaty--operates ``by consensus.'' This means 
that any party can veto any expansion of sensor capacities, making it 
in effect your choice as to whether or not Russia can fly such sensors 
over the United States. You told the committee that expanding the 
sensor package to accommodate Russia's recent request is ``something 
we're going to want to do.''
    Is it correct to say that Open Skies flights are not the only way 
in which the United States can obtain overhead collection against 
Russian facilities we wish to learn about?

    Answer. Yes, the United States can obtain overhead collection 
through a number of sources, including national technical means. 
Commercial satellites can collect unclassified imagery of Russian 
facilities, the best of which can be of comparable resolution to Open 
Skies imagery. However, this does not provide the same core value as 
the Treaty, which enhances mutual understanding and confidence by 
giving all 34 States Parties--regardless of other collection capacities 
available to them--the ability to gather information through aerial 
imaging on military forces and activities of concern to them. Our 
Allies value the Treaty not only for the imagery it provides, which can 
be openly shared and discussed diplomatically to resolve or further 
discuss issues of concern, but also for its role as a confidence and 
security building measure, and its role in facilitating mutual 
predictability.
    The Treaty is routinely used to monitor military activities, and 
contributes to monitoring of compliance with arms control and other 
commitments. Open Skies States Parties used the Treaty in a rapid 
response situation to monitor events in and around Ukraine in 2014. For 
example, the United States shared imagery gained from a German/U.S. 
mission on March 24, 2014, over Russia with OSCE participating States 
to substantiate claims of Russian military activities in southern 
Russia near Ukraine's border, despite Russian denials. Open Skies 
missions also demonstrated political and diplomatic support to Ukraine 
during this crisis, and have facilitated development of effective 
working-level relationships between U.S., Allied and Ukrainian 
personnel.


    Question 15. And is it also correct to say that Open Skies flights 
add significantly more to Russia's ability to collect against us than 
they do to our ability to collect against Russia--and that this would 
be especially true if Open Skies collection is expanded to include more 
of the sensors set forth in Article IV(1) of the Treaty?

    Answer. The information Russia obtains from Open Skies is of only 
incremental value when considered in the context of Russia's other 
means of intelligence gathering. The 30 centimeter resolution limit on 
Open Skies wet film and electro-optical imagery is similar to that 
available in commercial satellite imagery, which is available at up to 
25 centimeter resolution. The Open Skies Treaty also provides 
procedures for use during overflights to improve confidence regarding 
what is being collected: a U.S. team conducts an inspection of the 
aircraft and sensor before each mission, flies on each mission over the 
United States to monitor the sensor performance, and receives a copy of 
the imagery after each Russian mission over the United States. The U.S. 
team also approves each flight route in advance, and provides warning 
to sensitive locations within the flight path. The Treaty does not 
prevent or preclude an observed State Party from undertaking mitigation 
measures such as shrouding facilities, halting sensitive activities, or 
taking other precautions on the ground. This will continue to be the 
case if additional sensor types are certified as provided for in 
Article IV(1) of the Treaty.
    It is also important to note that Russia is the only State Party 
that conducts Open Skies missions over the United States, conducting 4-
9 missions annually in recent years. By contrast, States Parties plan 
as many as 42 Treaty missions over Russia in total each year. The 
United States schedules up to 16 of these missions, and according to 
Treaty provisions, we have the right to purchase imagery from all other 
Treaty missions flown over Russia.


    Question 16. As you told the committee on March 17, Russia 
continues a longstanding pattern of denying U.S. Open Skies overflight 
requests in ways not permitted by the Treaty. It is also, by your own 
account, continuing to violate the INF Treaty. It also remains in 
violation of its 1994 commitments to guarantee the territorial 
integrity of Ukraine.


   Under these circumstances, what benefit do you see in making 
        concessions to Russian demands in the Open Skies Consultative 
        Commission when you have the easy and perfectly legal option of 
        refusing them?


    Answer. Russia's restrictions on Open Skies flights are concerning. 
However, throughout the history of the Treaty, the United States has 
flown the vast majority of its missions over Russia in accordance with 
Treaty requirements. We continue to confront Russia in the OSCC for 
behavior that we find problematic. We are working to resolve compliance 
and implementation concerns, while at the same time providing for the 
viability of the Treaty over the long term.


    Question 17. As you told the committee on March 17, the U.S. has 
begun rolling back our flexibility in implementing the Treaty with 
regard to Russian overflights of the U.S, what flexibility were we 
showing above the requirements of the Treaty?

    Answer. In some instances States Parties have requested reasonable 
accommodations for circumstances not clearly spelled out in the Treaty. 
The United States is taking a strict implementation approach to any 
possible accommodations vis-a-vis Russia, and taking a hard look at any 
ambiguous Treaty provisions.
    An example of our strict approach to implementation includes the 
response to a request from Russia related to its planned 2015 Open 
Skies mission over the United States using its short-range An-30B 
aircraft. Russia requested three intermediate refueling stops in order 
to reach the designated U.S. point of entry for Open Skies missions, in 
line with similar flexibility offered by Russia to NATO Allies in the 
past. However, the relevant Treaty procedures only require States 
Parties to provide one intermediate refueling stop. Consistent with the 
U.S. strict approach to implementation vis-a-vis Russia, we declined 
Russia's request for three intermediate stops.


    Question 18. And why would we provide any flexibility when Russia 
is already in violation of the Open Skies Treaty.

    Answer. As a general matter, the U.S. policy is not to provide 
additional flexibility vis-a-vis Russia beyond what is required by the 
Treaty. We have not determined Russia to be in violation of the Open 
Skies Treaty. However, we are assessing compliance concerns raised by 
Russia's conduct, and we are actively working with other States Parties 
to address these concerns.


                               __________

         Responses to Additional Questions Submitted to Under 
   Secretary of State Hon. Rose Gottemoeller by Senator John Barrasso

    Question 1. Are you currently negotiating any legally binding 
agreements with Russia providing for further reductions in nuclear 
weapons?

    Answer. No.


    Question 2. Are you currently negotiating any non-legally binding 
agreements with Russia providing for further reductions in nuclear 
weapons?

    Answer. No.


    Question 3. We have known for years now that Russia has been 
violating the INF Treaty. In prepared remarks to a joint hearing of the 
House Armed Services and Foreign Affairs Committees in December 2014, 
you said you were ``actively reviewing potential economic measures in 
response to Russia's violation.'' In response to a question on the 
matter, you said you were exploring ``economic countermeasures'' in 
response to the violation. At a similar hearing in December 2015, you 
said ``we continue to consider economic measures with regard to the INF 
Treaty.'' In his April 2009 speech in Prague committing to rid the 
world of nuclear weapons, President Obama said that in order for the 
nonproliferation regime to work, ``Violations must be punished.''


   What specific ``economic countermeasures'' have you been exploring 
        in response to Russia's violations?


    Answer. Economic options are one potential part of a response to 
demonstrate to Russia the costs associated with its violation. 
Important considerations for determining any economic measures in this 
instance are that they should be related to the violation, supported by 
allies, and distinct from the current sanctions related to other 
Russian actions. We are happy to have the appropriate officials discuss 
further details of U.S. policies in this area in the appropriate 
setting.


    Question 4. When will the United States impose sanctions on Russia 
to punish its violation of the INF Treaty?

    Answer. Economic options are one potential part of a response to 
demonstrate to Russia the costs associated with its violation. 
Important considerations for determining any economic countermeasures 
are that they should be related to the violation, supported by allies, 
and distinct from the current sanctions related to other Russian 
actions. We are happy to have the appropriate officials discuss further 
details of U.S. policies in this area in the appropriate setting.


    Question 5. [REDACTED]

    Answer. During the December hearing, I misunderstood the nature of 
a question regarding this system and apologize for any confusion this 
may have caused. I provided the House Armed Services and House Foreign 
Affairs Committees with a response to a question for the record which 
explained this issue to the extent possible for the open hearing 
record. Additionally, the committees provided me the opportunity to be 
able to discuss this issue in detail during the closed session that 
immediately followed the open session. It was helpful to discuss this 
topic in that environment, given the sensitivity of this issue.
    The administration, through the work of the Intelligence Community, 
regularly provides Congress with authoritative assessments of what the 
United States knows and does not know regarding Russian nuclear weapons 
systems. This sharing of information is done regularly to keep staff 
and members abreast of these issues, to better inform our diplomacy and 
policymaking in the administration, and to aid in the legislative 
process.
    For additional information regarding this subject, we are happy to 
provide a briefing to appropriately cleared staff in a closed setting.


    Question 6. There is a significant asymmetry between the U.S. and 
Russian tactical nuclear arsenals. The former head of the NNSA has said 
Russia may have as many as ten times more tactical nuclear weapons than 
we do.
    During Senate consideration of the Moscow Treaty, the Chairman of 
this Committee at the time, Senator Biden, lamented that that treaty 
did not address tactical nuclear weapons. In addition, he specifically 
argued that it was time for an ``arms-control agreement on tactical 
nuclear weapons.'' After ratification of the Moscow Treaty, he said 
``getting a handle on Russian tactical nuclear weapons must be a top 
arms control and non-proliferation objective of the United States 
Government.''
    As a condition for the ratification for New START, the Senate 
directed President Obama to certify that he would initiate 
``negotiations with the Russian Federation on an agreement to address 
the disparity between the non-strategic (tactical) nuclear weapons 
stockpiles of the Russian Federation and of the United States.'' He 
made that certification on February 2, 2011.


   Please provide a status update on these negotiations.


    Answer. Condition 12 of the December 22, 2010, Senate Resolution of 
Advice and Consent to the Ratification of the New START Treaty provides 
that the President shall certify to the Senate that ``the United States 
will seek to initiate . . .  negotiations with the Russian Federation 
to address the disparity between the non-strategic (tactical) 
stockpiles of the Russian Federation and of the United States . . . .'' 
On April 8, 2010, the United States announced publicly its desire to 
pursue an agreement with Russia to reduce nonstrategic nuclear weapons.
    After signing the New START Treaty in Prague, the President said 
that the Treaty ``will set the stage for further cuts. And going 
forward, we hope to pursue discussion with Russia on reducing both our 
strategic and tactical weapons, including non-deployed weapons.'' The 
United States remains committed to pursuing future negotiations with 
Russia on reductions in nuclear weapons and reciprocal measures to 
increase transparency on nonstrategic nuclear weapons.
    At the Chicago NATO Summit on May 20, 2012, NATO stated it was 
prepared to consider further reducing its requirement for nonstrategic 
nuclear weapons assigned to the Alliance in the context of reciprocal 
steps by Russia, taking into account the greater Russian stockpiles of 
nonstrategic nuclear weapons stationed in the Euro-Atlantic area. The 
administration remains committed to consulting closely with NATO Allies 
and will take into account NATO requirements and basing arrangements 
the context of any discussions on future nuclear arms reductions.
    However, arms control requires a willing partner and a conducive 
strategic environment. Russia has deflected efforts to pursue 
nonstrategic nuclear weapons arms control by insisting on preconditions 
for negotiations. These preconditions are unacceptable to the United 
States and NATO.
    For further information, I refer you to the administration's Annual 
Report on Nonstrategic (Tactical) Nuclear Weapons. The most recent 
version was completed in January 2016 and delivered to Congress.


    Question 7. Russia is essentially a serial violator of arms control 
treaties. In the last START treaty, Russia violated verification 
provisions on the counting of ballistic missile warheads, monitoring of 
mobile ballistic missiles and telemetry. When President Obama completed 
New START, there were a number of compliance issues outstanding on the 
original START. Russia has also been violating the INF Treaty.


   Is Russia currently in compliance with its arms control, 
        nonproliferation, and disarmament agreements and commitments? 
        If not, please list the agreements and commitments Russia is 
        currently in noncompliance.


    Answer. In addition to Russia's violation of the INF Treaty, Russia 
remains in violation of the Conventional Armed Forces in Europe (CFE) 
Treaty, after unilaterally ``suspending'' its implementation of CFE in 
2007. The Treaty does not provide for such an action. Russia's action 
has had a serious impact on military transparency and confidence in 
Europe. The United States and NATO Allies made several diplomatic 
efforts to bring Russia back into compliance after 2007, and in 2011 
the United States ceased implementing CFE vis-a-vis Russia as a legal 
countermeasure. This action was taken in solidarity with our 21 NATO 
Allies who are also CFE States Parties as well as Georgia and Moldova, 
who joined us in ceasing implementation of CFE vis-a-vis Russia.
    It remains unclear whether Russia has fulfilled its Article II 
obligations under the Biological Weapons Convention (BWC), as Russia 
has not adequately declared whether previous BW work has been 
completely destroyed or diverted to peaceful purposes. Also, we cannot 
confirm that Russia has met its obligations for declaring all chemical 
weapons stockpiles, chemical weapons production facilities, and 
chemical weapons development facilities under the Chemical Weapons 
Convention (CWC).
    In addition, we continue to have concerns about conduct by Russia 
that raises questions about its adherence to obligations under the Open 
Skies Treaty--namely, the denial or restriction of flights over parts 
of its territory, including central Moscow, Kaliningrad, and near its 
border with Georgia. These issues continue to be raised with Russia, 
bilaterally and through the Open Skies Consultative Commission (OSCC).


    Question 8. What violations of the verification and inspection 
procedures have occurred by Russia under New START?

    Answer. Russia is in compliance with its obligations under the New 
START Treaty. For further information, I refer you to the 
administration's Annual Report on Implementation of the New START 
Treaty. The most recent version was completed in January 2016 and 
delivered to the Senate.


                               __________

       Responses to Additional Questions Submitted to Assistant 
    Secretary of State Hon. Thomas Countryman by Senator Marco Rubio


    Question 1. Why did we recently purchase heavy water from Iran's 
Arak reactor?

    Answer. The purchase of 32 metric tons of Iranian heavy water by 
the U.S. Department of Energy's Isotope Program will fulfill a 
significant amount of the domestic heavy water need for research and 
industrial applications, and for which there is no domestic source. 
This transaction provides U.S. industry with a critical product, while 
also providing a final disposition for excess heavy water that was 
exported from Iran prior to Implementation Day as contemplated in the 
Joint Comprehensive Plan of Action.


    Question 2. What are plans for the heavy water? What was the 
purchase price and was that price consistent with market value for 
heavy water?

    Answer. The U.S. Department of Energy (DOE) announced that its 
Isotope Program is purchasing heavy water for both domestic industrial 
and research applications, including for DOE uses. The heavy water will 
fulfill a substantial portion of domestic demand this year for U.S. 
industry and domestic research applications. DOE expects to resell the 
purchased heavy water at commercial prices to domestic commercial and 
research buyers. One recipient of the heavy water will be the Oak Ridge 
National Laboratory to use in its Spallation Neutron Source (SNS), 
which is a facility used in materials research and macromolecular and 
biological systems. SNS will use the heavy water to increase the 
intensity of its beam and therefore the efficiency of the facility. The 
Isotope Program plans to pay approximately $8.6 million dollars for the 
heavy water, a price that reflects the realities of the current market.


    Question 3. Were other countries in the P5+1 or other likeminded 
countries willing to purchase the heavy water and if so, why did the 
United States make the purchase?

    Answer. As part of the Joint Comprehensive Plan of Action (JCPOA), 
Iran committed to limit its stockpile of nuclear-grade heavy water to 
130 metric tons. To reach Implementation Day on January 16, 2016, Iran 
brought its heavy water stockpile under the 130 metric ton cap by 
exporting its excess heavy water to Oman in anticipation of a sale on 
the international market. The purchase of 32 metric tons of this heavy 
water by the U.S. Department of Energy's Isotope Program will fulfill a 
significant amount of the domestic heavy water need for research and 
industrial applications, and for which there is no domestic source. 
This transaction provides U.S. industry with a critical product, while 
also providing a final disposition for excess heavy water exported from 
Iran as contemplated in the JCPOA. It is possible that other countries 
with a need for heavy water may choose to purchase Iranian heavy water 
as well and we understand certain countries have already expressed 
interest in doing so.


    Question 4. What are we doing beyond the Nuclear Security Summit to 
keep nuclear or radiological materials away from ISIL?

    Answer. The State Department leads the U.S. government's diplomatic 
efforts to help foreign partners to counter nuclear smuggling and to 
keep nuclear and radioactive materials out of the hands of terrorists 
and criminals. The has negotiated politically-binding Joint Action 
Plans to counter nuclear and radioactive materials smuggling with 14 
countries, including with Iraq in 2014. Under this Joint Action Plan, 
Iraq committed to strengthen its capabilities to prevent, detect, and 
respond to incidents of nuclear smuggling and to strengthen its ability 
to find and recover nuclear and radioactive materials out of regulatory 
control. The United States is actively supporting Iraq in these 
efforts. These Joint Action Plans demonstrate our commitment to work 
together to counter nuclear and radioactive materials smuggling and to 
create a framework for ongoing collaboration to strengthen capabilities 
in this area.
    The State Department also works closely with U.S. interagency 
partners to provide capacity-building programs to assist partner 
countries worldwide in securing nuclear materials. For example, State, 
the Department of Energy, and the Federal Bureau of Investigation are 
actively working with partner governments to address insider threats, 
to keep nuclear and radioactive materials within regulatory control, 
and to strengthen investigative and prosecutorial capabilities for 
instances in which materials fall out of regulatory control. The United 
States also co-chairs the Global Initiative to Combat Nuclear 
Terrorism, which is an important multilateral mechanism for promoting 
best practices for preventing, detecting, and responding to terrorist 
acquisition of nuclear and radioactive materials.


    Question 5. What is our plan for securing Pakistan's growing 
stockpile of nuclear material?

    Answer. Securing nuclear material is a national responsibility. The 
Government of Pakistan is well aware of the range of potential threats 
to its nuclear arsenal and has a professional and dedicated security 
force.
    However, we are concerned by the increased security challenges that 
accompany growing stockpiles and continue to urge all states with 
nuclear weapons to exercise restraint regarding nuclear and missile 
capabilities. We would be glad to further discuss issues relating to 
Pakistan's nuclear weapons program in a classified setting.
    Pakistan is engaged with the international community on nuclear 
security issues, including the International Atomic Energy Agency, the 
Global Initiative to Combat Nuclear Terrorism, and the Nuclear Security 
Summit process. Pakistan also recently ratified the 2005 Amendment to 
the Convention on the Physical Protection of Nuclear Material.


    Question 6. What work have we done to protect Pakistan's nuclear 
material from the threat by outsiders and insiders?

    Answer. Securing nuclear material is a national responsibility.
    The Security, Strategic Stability, and Nonproliferation (SSS&NP) 
working group under the Strategic Dialogue includes discussion of 
issues such as international efforts to enhance nuclear security. The 
SSS&NP dialogue remains an invaluable forum and we look forward to the 
next round of discussions in May.
    The United States and Pakistan both participate in nuclear 
security-related fora such as the Global Initiative to Combat Nuclear 
Terrorism (GICNT), the Nuclear Security Summit process, and the 
International Atomic Energy Agency (IAEA)-hosted meetings of Nuclear 
Security Support Centers (NSSC). Through such fora, participating 
countries share best practices related to nuclear security.
    We would be glad to further discuss issues relating to Pakistan's 
nuclear weapons program in a classified setting.


    Question 7. During your testimony before the Committee on March 17, 
you noted that the ``calls upon'' language with regard to Iran's 
ballistic missiles is not a lesser standard than the previous outright 
ban on Iran's development of ballistic missiles.


   Why did the administration cave to Russia, China, and Iran in 
        accepting a lesser standard?


    Answer. Unfortunately, Iran has consistently ignored Security 
Council resolutions requiring it not to conduct ballistic missile 
activity for years. Thus, the prohibitions on Iran's access to missile 
technology and expertise are the most important and effective 
restrictions on Iran's missile program, and they remain in full effect. 
U.N. Security Council Resolution 2231 (2015) maintains all legally 
binding requirements on states to deny Iran access to missile 
technology and expertise, and the international community continues to 
rely on these provisions to limit Iran's missile program.
    Under UNSCR 2231, transfers of items to Iran that are contained on 
the Missile Technology Control Regime (MTCR) Technical Annex require 
approval in advance of the Security Council. As a permanent member of 
the Council, we have the ability to veto any such transfer. The MTCR 
Technical Annex was also the basis for the missile-related restrictions 
under previous UNSCRs targeting Iran (UNSCRs 1737, 1747 and 1929). 
Iranian ballistic missile launches are inconsistent with UNSCR 2231, 
which is a clear and unanimous expression of the Council's position on 
Iran's ballistic missile programs.


    Question 8. Why has the U.N. not acted to sanction Iran for its 
continued ballistic missile development?

    Answer. We have long been concerned about Iran's ballistic missile 
program. Iran's efforts to develop increasingly capable ballistic 
missile systems remain one of our most significant nonproliferation 
challenges and a very real threat to regional and international 
security. We continue to rely on a wide range of multilateral and 
unilateral tools to address Iran's ballistic missile development 
efforts.
    The prohibitions on Iran's access to missile technology and 
expertise are the most important and effective restrictions on Iran's 
missile program, and they remain in full effect. U.N. Security Council 
Resolution 2231 (2015) maintains all legally binding requirements on 
states to deny Iran access to missile technology and expertise, and the 
international community continues to rely on these provisions to limit 
Iran's missile program.
    We will continue working with allies to raise Iran's actions 
inconsistent with UNSCR 2231 at the U.N. Security Council, as we are 
doing in response to the most recent launches. Raising the issue at the 
Security Council shines a spotlight on Iran's provocative ballistic 
missile launches in defiance of UNSCR 2231 and increases the political 
cost to Iran of its behavior. We will continue to use the Security 
Council to discuss such missile launches, consistent with monitoring 
the implementation of UNSCR 2231, so that the Council can discuss 
appropriate responses. In addition to the provisions of U.N. Security 
Council resolutions, we also rely on a variety of other tools to 
counter Iran's missile activities.
    For example, on January 17, 2016, we designated three entities and 
eight individuals involved in a network that procured materials and 
equipment for Iran's ballistic missile program. These designations 
effectively cut these individuals and entities off from the U.S. 
financial system, and any non-U.S. person who engages with these 
designees may also be subject to U.S. secondary sanctions.


    Question 9. During your testimony before the Committee on March 17, 
you noted that Iran's ballistic missile development should be viewed in 
the context of regional ballistic missile developments.


   Is the administration laying the ground work for acceptance of 
        Iran's ballistic missile activities in a JCPOA world?


    Answer. No. The focus of the Joint Comprehensive Plan of Action 
(JCPOA) is Iran's nuclear program. The JCPOA was not predicated on a 
change in Iran's broader regional behavior, nor do we necessarily 
expect one. What has changed quite significantly is Iran's nuclear 
program. We will continue our efforts, in close coordination with 
regional and international partners, to counter Iran's ?support for 
terrorism, its destabilizing regional activities, its illicit arms 
transfers, its ballistic missile program, its human rights abuses, and 
the rest of our long list of concerns with regard to Iran's policies in 
the region. But because of the JCPOA, we will be able to tackle all of 
those issues and confront Iran directly where and when we need to, 
without the specter of an Iranian nuclear weapon.


                               __________


                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
